    REDACTED – FOR PUBLIC RELEASE





           AUDIT OF THE 

OFFICE ON VIOLENCE AGAINST WOMEN 

     GRANTS TO JANE DOE, INC. 

     BOSTON, MASSACHUSETTS 





     U.S. Department of Justice 

   Office of the Inspector General 

            Audit Division 



    Audit Report GR-70-11-005 

           August 2011





    REDACTED – FOR PUBLIC RELEASE 

                       REDACTED – FOR PUBLIC RELEASE



           AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN 

                      GRANTS TO JANE DOE, INC. 


                               EXECUTIVE SUMMARY 


       The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the following grants made by the Office
on Violence Against Women (OVW) to Jane Doe, Inc. (Jane Doe):
(1) Enhanced Training and Services to End Violence and Abuse of Women
Later in Life Program Agreement, number 2007-EW-AX-K005; (2) Grants to
Sexual Assault and Domestic Violence Coalitions Program, number
2007-MU-AX-0067; (3) Technical Assistance Program Call for Concept
Papers Agreement, number 2007-TA-AX-K039; and (4) OVW Recovery Act
Grants to State Sexual Assault And Domestic Violence Coalitions Program
Grant, number 2009-EU-S6-0048. Collectively, these awards totaled
$1,341,410 in OVW funding. Jane Doe is also known as the Massachusetts
Coalition Against Sexual Assault and Domestic Violence, and is located in
Boston, Massachusetts.

       The purposes of the four grants were to: (1) support efforts to
coordinate victim services within Massachusetts and to collaborate with
other federal, state, and local entities to respond to violence against women
issues; (2) increase and strengthen training for police, prosecutors, and the
judiciary in recognizing, investigating, and prosecuting instances of abuse,
neglect, exploitation, domestic violence, and sexual assault against older
individuals; (3) develop, organize, facilitate, and present three to four
training programs to non-profit, non-governmental victim advocates across
the country; and (4) preserve and create jobs and promote economic
recovery.1

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also assessed Jane Doe’s program performance
in meeting the grants’ objectives and overall accomplishments.

      We determined Jane Doe did not fully comply with the essential grant
requirements we tested. We found internal control weaknesses, untimely
progress reports, unsupported and unallowable payroll expenditures,
unallowable bonus payments, and unallowable and unreasonable

       1
         The Abuse Later in Life Agreement and the Technical Assistance Agreement were
cooperative agreements, but for purposes of consistency they will be referred to as grants
throughout this report.

                                    -i-
                       REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE



expenditures for conferences.2 Additionally, a contractor performing grant
funded services was not effectively monitored and Jane Doe did not comply
with all of the grants’ special conditions. Because of the deficiencies
identified, we are questioning $638,298, or about 47 percent, of the grant
funds.3

     These items are discussed in detail in the findings and
recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.

      We discussed the results of our audit with Jane Doe officials and have
included their comments in the report, as applicable. Additionally, we
requested a response to our draft report from Jane Doe and OVW, and their
responses are appended to this report as Appendix III and IV, respectively.
Our analysis of both responses, as well as a summary of the actions
necessary to close the recommendations can be found in Appendix V of this
report.




       2
          In October 2009, the financial reporting form was changed from the Financial Status
Report to the Federal Financial Report. Because most of the forms we reviewed were
Financial Status Reports, that is how we refer to them in this report.

       3
         The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of questioned
costs.

                                    -ii-
                       REDACTED – FOR PUBLIC RELEASE
                     REDACTED – FOR PUBLIC RELEASE 



                               TABLE OF CONTENTS



INTRODUCTION ....................................................................... 1 

Office on Violence Against Women ................................................. 3 

Enhanced Training and Services to End Violence and 

     Abuse of Women Later in Life................................................. 3 

Grants to Sexual Assault and Domestic Violence 

     Coalitions ............................................................................ 3    

Technical Assistance Program Call for Concept Papers ...................... 4 

Recovery Act Grants to State Sexual Assault And 

     Domestic Violence Coalitions .................................................. 4 

Jane Doe, Inc. ............................................................................ 4 

Our Audit Approach ..................................................................... 5 


FINDINGS AND RECOMMENDATIONS ....................................... 7 

Compliance With Essential Grant Requirements .............................. 7 

Internal Control Environment ....................................................... 7 

Personnel Budget Allocation and Expenditures .............................. 10 

Grant Expenditures .................................................................. 13 

Reporting ................................................................................ 19 

Drawdowns .............................................................................. 21 

Budget Management and Control ................................................ 22 

Monitoring of Contractors .......................................................... 22 

Compliance with Award Conditions .............................................. 23 

Accountable Property ................................................................ 25 

Program Performance and Accomplishments ................................. 26 

Conclusions.............................................................................. 28 

Recommendations..................................................................... 28 


APPENDIX I - OBJECTIVES, SCOPE, AND METHOLODOGY........ 31

APPENDIX II - SCHEDULE OF DOLLAR RELATED FINDINGS .... 33 

APPENDIX III – JANE DOE, INC. RESPONSE TO THE DRAFT 

   AUDIT REPORT ................................................................ 34 

APPENDIX IV – OFFICE ON VIOLCENCE AGAINST WOMEN 

   RESPONSE TO THE DRAFT AUDIT REPORT........................ 40 

APPENDIX V – OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NCESSARY
   TO CLOSE THE REPORT .................................................... 44 





                     REDACTED – FOR PUBLIC RELEASE 

                                    INTRODUCTION

       The U.S. Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of four grants awarded by the Office
on Violence Against Women (OVW) to Jane Doe, Inc. (Jane Doe), also known
as the Massachusetts Coalition Against Sexual Assault and Domestic
Violence.4 These grants included: (1) grant number 2007-EW-AX-K005 –
Enhanced Training and Services to End Violence and Abuse of Women Later
in Life, (2) grant number 2007-MU-AX-0067 – State Grants to Sexual
Assault and Domestic Violence Coalitions, (3) grant number
2007-TA-AX-K039 – Technical Assistance Program, and (4) grant number
2009-EU-S6-0048 – Recovery Act Grants to State Sexual Assault and
Domestic Violence Coalitions. The last grant, grant number
2009-EU-S6-0048, was awarded under the American Recovery and
Reinvestment Act of 2009.5 Collectively, these grant awards totaled
$1,341,410 in OVW funding.

       The award documentation stated that the purposes of these grants
were to: (1) support Jane Doe’s efforts to coordinate victim services within
Massachusetts and to collaborate with other federal, state, and local entities
to respond to violence against women issues; (2) increase and strengthen
training for police, prosecutors, and the judiciary in recognizing,
investigating, and prosecuting instances of abuse, neglect, exploitation,
domestic violence, and sexual assault against older individuals; (3) develop,
organize, facilitate, and present three to four training programs to non-
profit, non-governmental victim advocates nationwide; and (4) preserve and
create jobs and promote economic recovery.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also assessed Jane Doe’s program performance
in meeting grant objectives and overall accomplishments. The following
tables show the total funding for each award as well as the associated
project start and end dates.

       4
          Of the four awards that we audited, two were grants and two were cooperative
agreements. For purposes of this audit, we will refer to these awards as grants throughout
this report.

       5
           The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided
$225 million in funding to OVW that was intended to develop and support the capability of
state, local, and non-profit entities involved in responding to violence against women.
Specifically, the Recovery Act directed that $8,750,000 be used to support the work of state
domestic violence and sexual assault coalitions, among other eligible recipients.

                                    -1-
                       REDACTED – FOR PUBLIC RELEASE
                  REDACTED – FOR PUBLIC RELEASE 




  ENHANCED TRAINING AND SERVICES TO END VIOLENCE AND 

             ABUSE OF WOMEN LATER IN LIFE 

                            PROJECT
    AWARD       AWARD DATE END DATE   AWARD AMOUNT
2007-EW-AX-K005        09/11/2007       09/30/2010   $399,333
              Total                                  $399,333
   Source: Office on Violence Against Women

    GRANTS TO SEXUAL ASSAULT AND DOMESTIC VIOLENCE 

                       COALITIONS 

                              PROJECT
     AWARD       AWARD DATE  END DATE AWARD AMOUNT
2007-MU-AX-0067        09/13/2007       08/31/2008   $166,090
    Supplement 1       09/22/2008       08/31/2009    165,930
    Supplement 2       09/25/2009       08/31/2010    204,035
              Total                                  $536,055
   Source: Office on Violence Against Women

 TECHNICAL ASSISTANCE PROGRAM CALL FOR CONCEPT PAPERS
                            PROJECT
     AWARD       AWARD DATE END DATE  AWARD AMOUNT
2007-TA-AX-K039        09/10/2007       06/30/2009   $249,772
              Total                                  $249,772
   Source: Office on Violence Against Women

   RECOVERY ACT GRANTS TO STATE SEXUAL ASSAULT AND 

 DOMESTIC VIOLENCE COALITIONS PROGRAM AGREEMENT WITH 

                     JANE DOE, INC. 

                             PROJECT
    AWARD       AWARD DATE  END DATE  AWARD AMOUNT
2009-EU-S6-0048        07/23/2009       04/30/2011   $156,250
              Total                                  $156,250
   Source: Office on Violence Against Women




                               -2-
                  REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



Office on Violence Against Women

       The Office on Violence Against Women (OVW), a component of the
U.S. Department of Justice, provides primary management and oversight of
the grants we audited. OVW’s mission is to provide national leadership in
developing the nation's capacity to reduce violence against women through
the implementation of the Violence Against Women Act (VAWA). OVW
provides financial and technical assistance to communities across the
country that are developing programs, policies, and practices aimed at
ending domestic violence, dating violence, sexual assault, and stalking.
Currently, OVW administers 2 formula grant programs and 17 discretionary
grant programs which were established under VAWA and subsequent
legislation. By forging state, local, and tribal partnerships among police,
prosecutors, victim advocates, health care providers, faith leaders, and
others, OVW grant programs intend to help provide victims with the
protection and services they need to pursue safe and healthy lives, while
simultaneously enabling communities to hold offenders accountable for their
violence.

Enhanced Training and Services to End Violence and
Abuse of Women Later in Life

       The Enhanced Training and Services to End Violence and Abuse of
Women Later in Life program was statutorily created by the Violence Against
Women Act of 2005 to increase and strengthen training for police,
prosecutors, and the judiciary in recognizing, investigating, and prosecuting
instances of abuse, neglect, exploitation, domestic violence, and sexual
assault against older individuals. The program is also intended to provide or
enhance services for older victims; create or support multidisciplinary
collaborative community responses to older victims; and conduct cross-
training for victim service organizations, governmental agencies, courts, law
enforcement, and nonprofit, nongovernmental organizations serving older
victims.

Grants to Sexual Assault and Domestic Violence Coalitions

       The Grants to Sexual Assault and Domestic Violence Coalitions
program is intended to support state coalition efforts to coordinate victim
services within their state as well as collaborate with other federal, state,
and local entities to respond to violence against women issues affecting their
jurisdictions. Statewide domestic violence coalitions provide comparable
support to member battered women’s shelters for victims of domestic
violence and victim services programs. In a small number of states and


                                -3-
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



territories these support services are provided through a single dual sexual
assault and domestic violence coalition. In other states, both state sexual
assault and domestic violence coalitions exist.

Technical Assistance Program Call for Concept Papers

       The Technical Assistance Program is intended to provide grantees with
the expertise and support they need to develop and implement successful
state, local, tribal, and campus projects, increase victim safety, and bolster
offender accountability. Through technical assistance grants, OVW supports
educational initiatives, conferences, peer-to-peer consultations, and targeted
assistance that allow its grantees to learn from experts and one another
about how to overcome obstacles and incorporate promising practices in
their efforts to address violence against women. Additionally, the Technical
Assistance Program focuses on building the capacity of national criminal
justice and victim advocacy organizations to address domestic violence,
sexual assault, stalking, and dating violence, as well as examine issues of
special interest to OVW and its constituents.

Recovery Act Grants to State Sexual Assault and
Domestic Violence Coalitions

       The Recovery Act Grants to State Sexual Assault and Domestic
Violence Coalitions Program (Recovery Act Coalitions Program) was funded
by the American Recovery and Reinvestment Act of 2009 (Public Law 111-5)
(Recovery Act). The Recovery Act Coalitions Program is intended to provide
direct support to member rape crisis centers through funding, training and
technical assistance, public awareness activities, and public policy advocacy.
Statewide domestic violence coalitions intend to provide comparable support
to member battered women’s shelters and other domestic violence victim
service providers. In a small number of states and territories, these support
services are provided through a single dual sexual assault and domestic
violence coalition. In Massachusetts, Jane Doe is organized as a statewide
coalition of more than 60 community-based sexual assault and domestic
violence programs.

Jane Doe, Inc.

      The mission of Jane Doe, Inc. (Jane Doe), also known as the
Massachusetts Coalition Against Sexual Assault and Domestic Violence, is to
bring together organizations and people who are committed to ending
domestic violence and sexual assault. According to Jane Doe’s website, it
operates as a state-wide membership advocacy organization dedicated to


                                -4-
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



preventing and abolishing domestic violence, sexual assault, and stalking.
Jane Doe was formed by the 1998 merger of the Massachusetts Coalition of
Battered Women Service Groups and the Massachusetts Coalition Against
Sexual Assault. Its membership is comprised of more than 60 community-
based domestic violence, sexual assault, and/or dual programs. Jane Doe
works with its member programs in order to understand the impact that
domestic and sexual violence has on victims and local communities. Jane
Doe also provides technical assistance, training, and information and
facilitates communication among the membership in many venues. Jane
Doe is based in Boston, Massachusetts.

      The goals of the grant-funded programs we audited were to:
(1) develop and operate a computer system to track domestic violence and
sexual assault incidents within Massachusetts; (2) distribute a newsletter
and administer a website to increase Jane Doe’s state-wide voice;
(3) conduct training for affiliates via the Jane Doe Training Institute;
(4) serve as the fiscal agent for a third party training contractor;
(5) coordinate Abuse Later in Life Training for Boston police officers and
detectives, as well as Suffolk County prosecutors; (6) hire and retain staff to
stimulate economic recovery; and (7) make enhancements to Jane Doe’s
website.

Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the grants. Unless otherwise stated in our report,
we applied the Office of Justice Programs (OJP) Financial Guide as our
primary criteria during our audit. The OJP Financial Guide serves as a
reference manual assisting award recipients in their fiduciary responsibility
to safeguard grant funds and ensure that funds are used appropriately and
within the terms and conditions of awards. Additionally, the OJP Financial
Guide cites applicable Office of Management and Budget (OMB) criteria and
the Code of Federal Regulations (CFR) that we also considered in performing
our audit. Lastly, we also relied on the General Service Administration’s
Federal Travel Regulations in conjunction with our compliance testing. We
tested Jane Doe’s:

         Internal control environment to determine whether the financial
          accounting system and related internal controls were adequate to
          safeguard grant funds and ensure compliance with the terms and
          conditions of the grants.




                                -5-
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



     	 Personnel budget allocation and personnel expenditures to
        determine whether the personnel costs charged to the grants were
        allowable, supported, accurate, and whether positions were within
        approved grant budgets.

     	 Grant expenditures to determine whether the costs charged to
        the grants were allowable and adequately supported.

     	 Reporting to determine if the required periodic Federal Financial
        Reports and Progress Reports were submitted on time and
        accurately reflected grant activity.

     	 Drawdowns (requests for grant funding) to determine whether
        requests for reimbursement, or advances, were adequately
        supported, and if Jane Doe managed grant receipts in accordance
        with federal requirements.

     	 Budget management and control to determine whether Jane
        Doe adhered to the OVW-approved award budgets for the
        expenditure of grant funds.

     	 Monitoring of contractors to determine whether Jane Doe had
        taken appropriate steps to ensure that contractors complied with
        grant requirements.

     	 Compliance with other grant requirements to determine if Jane
        Doe complied with all of the terms and conditions specified in the
        individual grant award documents.

     	 Accountable property to determine whether Jane Doe had
        procedures for controlling accountable property, and whether the
        property was included in its inventory and identified as purchased
        with federal funds.

     	 Program performance and accomplishments to determine
        whether Jane Doe achieved grant objectives, and to assess
        performance and grant accomplishments.

      Where applicable, we also test for compliance in the areas of indirect
costs, matching funds, program income, and monitoring of subgrantees. For
these grants, we determined that Jane Doe charged no indirect costs,
matching funds were not required, the grant-funded programs generated no
program income, and there were no subgrantees.


                                -6-
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE


                  FINDINGS AND RECOMMENDATIONS

       COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

         We determined that Jane Doe, Inc. did not comply with
         all of the essential grant requirements in the areas we
         tested. Specifically, we found: (1) deficiencies in the
         system of internal controls, (2) unsupported and
         unallowable personnel expenditures, (3) unallowable and
         unreasonable non-personnel grant expenditures,
         (4) inadequate grant reporting, including untimely
         progress reports, (5) ineffective contractor monitoring,
         and (6) noncompliance with other grant requirements.
         As a result of these deficiencies, we question $638,298 in
         grant expenditures, or about 47 percent of the combined
         total award budget for all grants. These conditions,
         including the underlying causes and potential effects on
         program performance, are further discussed in the body
         of this report.

Internal Control Environment

       We began this audit by reviewing Jane Doe’s accounting and financial
management systems and Single Audit Reports to assess the organization’s
risk of non-compliance with laws, regulations, guidelines, and the terms and
conditions of the grants. We reviewed the accounting and financial records
specific to each grant to determine if Jane Doe’s system of internal controls
provided for effective control of and accountability over DOJ grant funds.
We interviewed management and staff from the organization, observed
accounting and financial reporting activities outsourced to a third-party
accounting and financial services firm (hereafter referred to as financial
services contractor), and performed transaction testing to further assess
risk.

       While our audit did not assess Jane Doe’s overall system of internal
controls, we did review the internal controls of Jane Doe’s financial
management system specific to the management of DOJ grant funds during
the grant periods under review. Overall, we identified significant internal
control deficiencies that are discussed in greater detail below. These
deficiencies warrant the attention of Jane Doe’s management for necessary
corrective action.




                                -7-
                   REDACTED – FOR PUBLIC RELEASE
                    REDACTED – FOR PUBLIC RELEASE 



       All of the grants we reviewed were required to comply with 2 C.F.R.
Part 215, Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals and Other Non-Profit
Organizations (formerly known as OMB Circular A-110) with respect to
effective control and accountability over federal funds. Specifically, the CFR
states, “Recipients must adequately safeguard all such assets and assure
they are used solely for authorized purposes.”

       The day-to-day accounting and financial administration of Jane Doe is
performed by its financial services contractor. The financial services
contractor is responsible for: processing all accounting and financial
transactions using a commercially available, off-the-shelf accounting
software package; generating necessary and required financial and grant
reporting; inputting and processing employee payroll; and overseeing cash
management activities, including grant drawdowns and payment of vendor
invoices. The financial services contractor works on-site at Jane Doe
2 to 3 days each week and reports directly to Jane Doe senior management –
specifically the Executive Director and the Chief Operating Officer (COO).
According to the Executive Director, while Jane Doe does not officially have a
Chief Financial Officer (CFO) on staff, the duties and responsibilities of a CFO
fall under the Executive Director. However, the Executive Director further
commented that in the absence of a CFO, and because of the Executive
Director’s limited in-office availability and heavy workload, the CFO function
has been delegated to the financial services contractor under the direct
supervision of the COO.

      We determined from our audit work that the financial services
contractor exercised almost exclusive control over the accounting and
financial recordkeeping functions and that Jane Doe management’s access to
the accounting software was generally limited to read-only access. We also
determined from our discussions that no written standardized operating
procedures existed to detail the work performed by the financial services
contractor and to ensure the continuity of Jane Doe’s financial operations in
the absence of the financial services contractor.

       According to all relevant versions of the OJP Financial Guide covering
each of the grant awards, Jane Doe was required to establish and maintain
adequate accounting systems and financial records to accurately account for
all grant-funded awards. This includes having adequate access to and
control over the accounting system. Both the financial services contractor
and Jane Doe’s Executive Director told us that they were unfamiliar with the
OJP Financial Guide.



                                 -8-
                    REDACTED – FOR PUBLIC RELEASE
                    REDACTED – FOR PUBLIC RELEASE 



       Our testing confirmed that the financial services contractor provided
some degree of separation of duties and had also implemented some
internal controls specific to the tasks it performs. For example, the financial
services contractor prepared monthly bank reconciliations, which are an
effective internal control mechanism. However, we also found that Jane Doe
management placed too much reliance on the financial services contractor.
Specifically, our follow up discussions disclosed that Jane Doe did not have
user rights to edit its own financial records. The financial services contractor
had the exclusive ability to process, update, and amend Jane Doe’s
accounting system and financial records. Additionally, our review of two
bank reconciliations revealed no evidence that management reviewed or
approved the reconciliations. This, coupled with the absence of any
documented standardized financial operating procedures, represents a
significant internal control deficiency.

       The Executive Director told us that she considered read-only access by
Jane Doe management to its accounting system and financial records an
indication of strong internal controls because it demonstrated segregation of
duties. She was unable to explain why the monthly bank reconciliations
were not reviewed and approved. More importantly, the Executive Director
acknowledged that if the financial services contractor staff were not
available, Jane Doe would be unable to process transactions in its accounting
system, nor would it be able to internally access its own financial records.
We were also told that Jane Doe staffing constraints further limited its ability
to self-manage its accounting and financial operations as it did not have any
employees who possessed the necessary knowledge, skills, and ability to
effectively and efficiently perform the functions delegated to the financial
services contractor.

       In our judgment, the internal control weaknesses we identified could
significantly impair Jane Doe’s effective control and accountability over
federal funds. Jane Doe’s overreliance on the financial services contractor to
perform all of the key and essential accounting and financial functions
creates potential risk. This risk would be further exacerbated should the
financial services contractor staff be unavailable, such as in the event of a
contractor dispute, because Jane Doe would be unable to fully utilize its
accounting system and access financial records. This could also undermine
Jane Doe’s ability to meet grant-funded programmatic objectives. From the
cumulative body of audit work we conducted in this area, we concluded that
Jane Doe should strengthen its internal controls to allow greater staff access
to its accounting system and financial records, and to exercise greater
supervisory review of the financial services contractor operations.



                                 -9-
                    REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE 



       During our audit, we also identified an internal control weakness
associated with an overall lack of documented monitoring and oversight of
Jane Doe’s Executive Director. In the case of Jane Doe, governance rests
with not only the Executive Director as a management principal, but also
with its Board of Directors.

      According to the Executive Director and the two Board members we
spoke to, the Executive Director reports directly to the Board, keeps the
Board informed as necessary of organizational results and accomplishments,
and retains sole authority over the fiscal and programmatic operations of the
organization. During our transaction testing, we found grant-funded
payments, including bonus payment and regular expense reimbursements,
to the Executive Director that were made without any documented Board
authorization or approval. Jane Doe was unable to provide us with a signed
copy of the Executive Director’s contractual agreement that we were told
established an agreed-upon salary at the date of hire, the position’s roles
and responsibilities, performance expectations, goals and objectives,
frequency of performance evaluations, and bonus payment criteria.6
Additionally, we were not provided with copies of Board minutes from
Executive Sessions where we were told these issues would have been
discussed and approved.

      The current Chairperson of the Jane Doe Board told us that the
Executive Director has the authority to set staff salaries as well as the
amount of funds contractors may be paid. In addition, we were told the
Executive Director has the ability to make periodic, self-directed bonus
payments without Board approval provided the Board is notified that a bonus
payment was made. In our judgment, the Board does not exercise sufficient
checks and balances over the Executive Director. This lack of oversight
represents an internal control shortcoming as the Executive Director’s ability
to act without board approval does not provide effective segregation of
duties or accountability over federal funds. The lack of oversight also
increases the risk that fraud, waste, and abuse could occur, or that grant
funds could be expended for unauthorized and unallowable purposes.

Personnel Budget Allocation and Expenditures

     Jane Doe allocated $605,504, or about 45 percent of its four grant
approved budgets, to personnel and fringe benefit expenditures. We
determined from our discussions with management and a review of available
documentation that consisted principally of employee timesheets, that Jane

       6
           Jane Doe provided a signed copy of the Executive Director’s contract in response to
our draft report.

                                   - 10 -
                       REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



Doe did not have a formal or verifiable methodology for properly allocating
or recording employee time consistently to the grant-funded projects.
Without a required and workable personnel allocation methodology, Jane
Doe was not in compliance with mandated guidelines under 2 C.F.R. Part
230, Cost Principles for Non-Profit Organizations (formerly known as OMB
Circular A-122).

      The OJP Financial Guide cites 2 C.F.R. Part 230 and the requirement
that charges to grant awards, including awards made to Jane Doe, be
supported by personnel activity reports. Specifically, the required guidance
states that charges to awards for salaries and wages, whether treated as
direct costs or indirect costs, will be based on documented payrolls approved
by a responsible official of the organization. The guidance goes on to say
that the distribution of salaries and wages to awards must be supported by
personnel activity reports.

      Moreover, the CFR requires that the personnel activity reports should
account for an employee’s total activity and the portion of the activity
charged to the award. The CFR additionally requires that the reports must
be signed by the individual employee or by a responsible supervisory official
having firsthand knowledge of the activities performed by the employee, and
that the distribution of activity represents a reasonable estimate of the
actual work performed by the employee during the periods covered by the
reports.

      To determine if Jane Doe was in compliance with the OJP and CFR
requirements discussed above, we tested a judgmental sample of grant
expenditures made to Jane Doe employees in two non-consecutive pay
periods and traced grant-funded employee personnel expenditures to
timesheets for all four grants. We found that Jane Doe employee timesheets
did not support personnel and fringe benefit expenditures charged to the
grants because the timesheets did not break out the specific grant where
work was being performed, contrary to CFR requirements. Because Jane
Doe did not allocate employee time as required by the CFR, we were unable
to verify that the employee timesheets we reviewed supported personnel
and fringe benefit expenditures that Jane Doe charged to the grants.

      Jane Doe, in its grant applications, was specific about the percentage
of employee time to be spent on grant-specific tasks. The Executive Director
told us that Jane Doe’s award budgets and accompanying narratives were
used as the basis for employee time charged to the grants - a good-faith
estimate of employee effort. Furthermore, the Executive Director said that
work was either classified as Domestic Violence or Sexual Assault among


                               - 11 -
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



staff, and that there are only a few tasks where work was directly related to
a specific grant.

       We asked why Jane Doe’s timesheets did not support the specific
charges made to the grants. The Executive Director said that the system to
track employee time was ineffective, and that Jane Doe employees recorded
their time based on project deliverables rather than the source of funding.
The Executive Director attempted to re-compute the timesheets we reviewed
to mathematically reconcile to grant charges. However, in our judgment this
did not adequately address the CFR requirements. We therefore question
$605,504, or the entire approved budget for personnel and fringe benefit
expenditures for all four grants as unsupported. The chart below itemizes
the amount of questioned costs per grant:

                     Unsupported Payroll Expenses
                Grant Number             Questioned Cost
                                            Amount
             2007-EW-AX-K005                       $173,250
             2007-MU-AX-0067                         328,315
             2007-TA-AX-K039                          25,600
             2009-EU-S6-0048                          78,339
             Total                                $605,504

Grant 2009-EU-S6-0048 Fundraising

      We also reviewed employee timesheets from our judgmental sample to
determine if employee time for fundraising activities was charged to the
grant. Jane Doe conducts fundraising to help sustain the continuity of its
operations. Our testing identified fundraising activity charged to the
Recovery Act grant. Specifically, as part of our transaction testing we
reviewed the timesheets of a part-time employee who was funded under the
Recovery Act award. The timesheets, which were approved by the
employee’s supervisor, showed that up to 60 percent (in the amount of
$1,975) of the employee’s time charged to the grant was for the preparation
of a draft three-year fund development plan. We reviewed the plan and
concluded it was for purposes of fundraising. Specifically, it was a
fundraising plan for Jane Doe as an organization and did not specifically
indicate that the fundraising plan was solely for purposes of furthering the
Recovery act award.

     The OJP Financial Guide specifically prohibits the use of grant funds for
purposes of fundraising. The Financial Guide says that neither the salary of


                               - 12 -
                   REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE 



persons engaged in fundraising nor indirect costs associated with those
salaries may be charged to the award. However, it also carves out a narrow
exception, and we reviewed the Recovery Act grant’s terms and conditions
to determine if Jane Doe fell within the exception.7 The Recovery Act grant
awarded to Jane Doe did not contain any special conditions that would have
permitted Jane Doe to use grant funds for fundraising purposes. As noted
above, the draft plan was for Jane Doe as an organization, not just the
program the Recovery Act grant was intended to support. We therefore
determined that the employee’s activities to develop the draft three-year
fund development plan should not have been charged to the Recovery Act
grant.

       The Executive Director told us that the part-time employee was not
fully engaged in fundraising activities and amended the time sheets to show
that the employee worked on Recovery Act activities. However, the part-
time employee clearly indicated on the time sheets that she worked on the
fund development plan. We therefore did not accept the Executive Director’s
modification. We question $1,975, or the percentage of the timesheets we
tested that identified fundraising hours worked by the part-time employee as
unallowable. Even though the amount we identified as unallowable
fundraising was already included as part of the total payroll expenses we
previously questioned in this report, we are reporting this exception
separately to highlight Jane Doe’s lack of an internal control mechanism to
ensure that only allowable charges are posted to grant awards.

Grant Expenditures

      We reviewed Jane Doe’s non-personnel grant expenditures to
determine if they complied with applicable terms and conditions outlined in
the OJP Financial Guide and General Services Administration (GSA) imposed
Federal travel policy. We judgmentally selected and tested transactions
from all four Jane Doe grants. Jane Doe’s non-personnel expenditures were
primarily for consultants, conference and per diem charges, supplies, and
occupancy expenses. We discuss the results of our transaction testing in
greater detail below.

     Chapter 7 of the OJP Financial Guide addresses allowable costs.
Regarding conferences and workshops, it says for contracts for events that

       7
           According to the 2008 OJP Financial Guide, a recipient may also expend funds, in
accordance with approved award terms, to seek future funding sources to institutionalize the
project in the terms and conditions of an OJP grant award, but not for the purpose of raising
funds to finance related or complimentary project activities.



                                   - 13 -
                       REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



include 30 or more participants, lodging costs for any number of attendees
requiring lodging must not exceed the federal per diem rates. If the lodging
rate exceeds the federal per diem rate, none of the lodging costs associated
with the event are allowable. It also says that food and beverage expenses
for conferences should be, among other things, reasonable. The Financial
Guide also notes that food or beverage charges cannot be related directly to
amusement and/or social events. It goes on to state that any event where
alcohol is served is considered a social event. Costs associated with social
events are unallowable.

       The Financial Guide states that travel costs are allowable as expenses
by employees who are in travel status on official business and that these
costs must be in accordance with federal or organizationally approved travel
policy. While grant recipients may establish their own travel rates, the
Department reserves the right to determine the reasonableness of those
policies. If grant recipients do not establish their own rates, they must abide
by the federal travel policy (GSA per diem rates). GSA posts current travel
policy and per diem rate information. We determined that Jane Doe did not
have its own travel policies in place. Therefore, federal travel policy,
including per diem lodging and meals and incidental expenses (M&IE) rates
apply.

Grant 2007-EW-AX-K005

        For this grant we tested lodging and per diem costs, amounting to
$14,758 or 4 percent of the total grant award that were charged to the
grant. We determined that Jane Doe exceeded per diem allowances on two
occasions; specifically two conferences that Jane Doe project consultants
participated in between July 2008 and June 2009. The per diem costs
charged to the grant exceeded the Federal established rates by $199. While
the excess charges were unallowable, we do not consider the amount
material and therefore do not question these costs.

Grant 2007-MU-AX-0067

     For this grant we tested transactions that reflected lodging, space
rental, and per diem charges specific to two conferences held in November
2007 and June 2009. The expenditures related to these conferences
amounted to $15,019, or 3 percent of the total grant award. As a result of
our review, we questioned $12,865 related to the two conferences, as
explained below.




                               - 14 -
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



    November 2007 Conference

     Jane Doe sponsored a 2-day conference in Southbridge, Massachusetts,
in November 2007 as part of its Diversity Training initiative. The conference
had 40 participants and expenditures totaled $12,691. Included in this total
was $487 in expenditures for alcohol and bar related charges. In response
to our draft audit report, Jane Doe provided additional documentation for
this conference; however, the documentation did not adequately address all
of the questioned costs. As a result, we questioned the entire cost of the
conference for the following reasons.

       	 The Financial Guide states that events at which alcohol is served
          are considered social, and should not be charged to a grant. The
          information provided to us during the audit and in response to our
          draft report does not identify the specific portions of the
          conference when alcohol was served. In addition, it does not
          identify how many times alcohol was served. As a result, we
          question the entire amount of the conference charged to the
          grant.

       	 The Financial Guide states that lodging costs for conferences with
          30 or more attendees cannot exceed the established GSA lodging
          rate, which was $92 per person per day for the time and location
          of this conference. The grantee charged the grant $142.50 per
          person, per day for lodging costs, totaling $5,700 – based on 40
          participants. In our view, the lodging costs were not reasonable.
          As a result, we also question $2,020 of the conference lodging
          costs because it was in excess of the per diem limit.

       	 The Financial Guide in effect at the time this conference took place
          states that food and beverage charges must be reasonable. In
          response to our working draft report, Jane Doe provided
          information showing that the per person food charge for this
          conference was $101.18, totaling $4,047 – based on 40
          participants. In contrast, the GSA rate was $49 per person, per
          day for the time and location of this conference, or $1,960 for the
          entire conference. In our opinion, the food charges were not
          reasonable. As a result, we also question $2,087 of the
          conference food and beverage costs because it was above the per
          diem limit.




                               - 15 -
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



    Although the $4,107 we identified as unreasonable for exceeding the
per diem limit was already included as part of the unallowable alcohol
expense we previously questioned in this section of the report, we are
reporting this exception separately to highlight Jane Doe’s lack of an internal
control mechanism to ensure that only allowable charges are posted to grant
awards and questioning the $4,107 separately.

    June 2009 Conference

     For the second conference, lodging was charged to the grant at a rate
that exceeded the lodging per diem limit set by GSA. For this conference,
Jane Doe sent one consultant to Washington, D.C., for a 2-day conference
and incurred a rate of $285 per day plus tax. The GSA rate was $209 per
day. The applicable OJP Financial Guide under Chapter 7 (Allowable Costs)
says that absent an organizationally approved travel policy, organizations
must abide by the current travel policy for per diem limits as posted by the
GSA. Costs for this consultant exceeded the allowable per diem allowance
by $174 (the difference between the actual cost incurred of $653 and the
per diem allowance with tax of $479). In our view, the lodging costs were
not reasonable. We therefore question $174, which is the amount charged
to the grant in excess of the allowable rate.

     . Unallowable questioned costs amounted to $12,691 or the entire
Southbridge Conference charge to the grant for charging alcohol to the
grant. Unreasonable questioned costs amounted to $4,281 for exceeding
the GSA rate for lodging and food. We recommend that OJP work with the
grantee to remedy those costs.

Grant 2007-TA-AX-K039

      For this grant, we tested transactions that included lodging and per
diem charges, which amounted to $47,985, or 31 percent of the total grant.
We determined that Jane Doe exceeded per diem limits for two conferences
that Jane Doe consultants administered in San Francisco, California in
January 2009 and in Washington, D.C., in May 2009. The applicable OJP
Financial Guide under Chapter 7 (Allowable Costs) says that the costs for
food and beverages must be reasonable. It further notes that absent an
organizationally approved travel policy, organizations must abide by the
current travel policy for per diem limits as posted by the GSA.




                               - 16 -
                   REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE 



       January 2009 Conference

       For the 2-day San Francisco conference with 34 participants, Jane Doe
exceeded the allowable per diem limits for breakfast and associated
refreshments by $3,093 over both days. This amount was calculated as the
difference between the actual costs charged to the grant for breakfast and
refreshments of $7,445 over 2 days and the GSA per diem limit which was
$4,352 (34 participants multiplied by the M&IE rate of $64 per day per
person) for both days. The excess of $3,093, or 71 percent over the per
diem limit, in our judgment is unreasonable. Additionally, Jane Doe incurred
an unallowable attrition fee or penalty of $2,352 for the San Francisco
conference in January 2009.8 The OJP Financial Guide prohibits grantees
from charging fines and penalties such as attrition fees to grant awards.

       May 2009 Conference

       For the 2-day Washington, D.C., conference with 37 participants, Jane
Doe exceeded the allowable per diem limits for dinner banquet charges and
associated refreshments by $3,011 over both days. This amount was
calculated as the difference between the actual costs charged to the grant
for dinner banquet charges and associated refreshments of $7,747 over
2 days and the GSA per diem limit which was $4,736 (37 participants at the
M&IE rate of $64 per day per person). The excess of $3,011, or 64 percent
over the per diem limit in our view is unreasonable.

      Between both conferences, we questioned a total of $8,456 for the
grant to include $6,104 of unreasonable per diem charges for two
conferences and an unallowable attrition fee of $2,352.

Grant 2009-EU-S6-0048 (Recovery Act)

      We selected a sample of transactions to test for the Recovery Act
grant, which amounted to $21,404, or about 14 percent of the total grant
award. None of these transactions included lodging or per diem charges.
We tested these transactions to determine if they were allowable and
supportable. All of the expenditures we tested were both allowable and
adequately supported for this grant.




       8
          An attrition fee is a penalty fee applied by hotels or other facility rental companies
when the organization reserving a block of rooms does not book and use the rooms.

                                   - 17 -
                       REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



Executive Compensation Record Retention

      We identified a bonus payment to the Executive Director that was not
approved by the Board of Directors as required by Jane Doe policy.
According to 2 C.F.R. Part 230, compensation to individual employees is
allowable provided it conforms to the established policy of the organization.
The Executive Director explained to us that the Board of Directors approves
her compensation, including bonus payments. However, we were also told
by Jane Doe officials the Board merely has to be notified of such payments
to the Executive Director and that the Board does not need to approve these
types of payments.

     To determine if Jane Doe complied with either policy stated above, we
examined documentation relating to payments made to the Executive
Director, including Jane Doe’s cover payment sheets, invoices, and other
supporting documentation. We identified one transaction, a bonus check for
$1,441, where the Executive Director approved the payment for herself. We
verified this payment with the financial services contractor.

     We asked the Executive Director why she authorized a bonus to herself
and she told us that she had provided notification to the Board of Directors.
We asked the current Board Chairperson if the Board retained minutes to
document that the Executive Director notified the Board about the bonus
payment. However, neither the Board Chairperson nor Jane Doe officials we
spoke with were able to provide us with sufficient documentation showing
that the bonus payment had been properly approved by the Board of
Directors. For example, they were unable to produce board minutes to
document that the Board was notified by the Executive Director or that it
approved the bonus. As a result, we questioned $1,441 as unallowable
according to the CFR because Jane Doe was unable to document the bonus
payment made to the Executive Director conformed to the established policy
of the organization.

     We determined this was caused by lack of familiarity with grant imposed
requirements as well as insufficient record retention policies pertaining to
organizational compensation decisions. To improve organizational
governance, it is essential that Jane Doe staff begin to retain the appropriate
records to support board decisions regarding organizational compensation,
and that responsible Jane Doe officials become familiar with CFR Cost
Principles.




                               - 18 -
                   REDACTED – FOR PUBLIC RELEASE
                      REDACTED – FOR PUBLIC RELEASE 



Reporting

Financial Status Reports/SF 269As

      The financial aspects of grants are monitored through a Financial
Status Report (FSR).9 According to the OJP Financial Guide, FSRs are
designed to describe the status of a program’s funds and should be
submitted within 45 days of the end of the most recent quarterly reporting
period on a calendar basis throughout the life of an award. For periods
when there have been no program outlays, a report to that effect must still
be submitted. Grant funding requests (drawdowns) or future awards may
be withheld if reports are not submitted or are excessively late. The
Financial Guide also requires that grantees report the actual expenditures
and unobligated liquidations as incurred for the quarterly reporting period.
We reviewed the submitted FSRs for timeliness and accuracy.

Grant 2007-EW-AX-K005

       Jane Doe submitted all 10 of the required FSRs for the grant. Early in
the award period, one of the 10 FSRs was submitted 5 days late. Jane Doe
officials told us the late submission was attributable to turnover in financial
services contractor staff and we do not consider this untimely submission to
be material. Additionally, our review of the accounting records and reports
provided to us by the financial services contractor showed the FSR
submissions were accurate because they agreed with the data we reviewed.

Grant 2007-MU-AX-0067

      Jane Doe submitted all 11 of the required FSRs for the grant. We
determined all of the FSRs were submitted timely. Ten of the 11 FSR’s
matched Jane Doe’s accounting records. Jane Doe accounting records
reported $30,992 in grant expenditures for September 2007, but the FSR
submission for that period did not report any expenditure of grant funds.
We questioned the financial services contractor staff responsible for
preparing the report, who noted this was for the first required FSR quarterly
reporting for the award. According to the contractor, grant expenditures
were not noted on the first FSR because the accounting records for
September 2007 had not yet been closed out. FSRs are not due until 45
days after the end of the quarterly period. The FSR was submitted on time
but additional grant-funded expenditures were later recorded in the

      9
           The FSR (Financial Status Report) has changed to FFR (Federal Financial Report)
effective October 1, 2009. For purposes of consistency in this report, the term FSR will be
used throughout the report when discussing required periodic financial reporting.

                                  - 19 -
                      REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



accounting system after the FSR submission. Because the subsequent FSR
submissions were accurate, we do not consider this to be a reportable
matter.

Grant 2007-TA-AX-K039

      Jane Doe submitted 11 of the 11 required FSRs for the grant. We
determined all of the FSRs were submitted timely. Ten of the 11 FSRs
matched Jane Doe accounting records. Jane Doe accounting records for
September 2007 reported $2,839 in grant expenditures, but the FSR
submission for that period did not report any expenditure of grant funds.
Similar to grant 2007-MU-AX-0067, this involved the first required FSR
quarterly report for the award. We discussed this with the financial services
contractor, who told us that the accounting records for September 2007 had
not yet been closed by the time the FSR was due (45 days after the end of
the quarter). The FSR was submitted on time, but additional grant funded
expenditures were later recorded in the accounting system after the FSR
submission. Because subsequent FSR submissions could be matched to
accounting system records, we do not consider this to be a reportable
matter

Grant 2009-EU-S6-0048 (Recovery Act)

      Jane Doe submitted all four of the required FSRs for the grant. We
determined all of the FSRs were submitted timely. We reviewed Jane Doe
accounting records and determined that all of the FSR submissions matched
information in the accounting records.

Progress Reports

      Progress reports provide information relevant to the performance of a
grant and the accomplishment of objectives set forth in the approved award.
According to the OJP Financial Guide, these reports must be submitted twice
yearly, within 30 days after the end of the reporting periods of June 30 and
December 31, for the life of the award. Funds or future awards may be
withheld if reports are not submitted or are excessively late.

       We determined that Jane Doe submitted all 17 of the required
semiannual reports for all of its awards. We reviewed each report for
accuracy and timeliness. To determine the accuracy of the progress reports,
we compared grant performance objectives against what Jane Doe reported
in its progress reports. We also compared these reports to documentation



                               - 20 -
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



that Jane Doe assembled to support its performance objectives. From our
review we determined the progress reports were accurate.

      In testing for timeliness, we determined that Jane Doe submitted its
17 reports between 5 and 192 days late. Jane Doe’s Executive Director told
us that the progress reports were delinquent because the accuracy of the
progress report was a higher priority to Jane Doe than timeliness.
Additionally, the Executive Director remarked that progress reports were late
because her workload was too great to file the reports in a timely manner.
The Executive Director also cited Jane Doe’s record keeping systems as a
contributing factor in the late filings. Consequently, on several occasions,
OVW withheld funding until the reports were submitted. The absence of
complete and timely periodic progress reports impairs OJP’s ability to
monitor grant activity and increases the risk the project could be delayed
causing grant funds to be wasted or used for unallowable purposes.

Drawdowns

      Drawdown is a term used by the grant awarding agency to describe
when a recipient requests grant funding for expenditures associated with a
grant. The OJP Financial Guide establishes the methods by which DOJ
makes payments to grantees. The methods and procedures for payment are
designed to minimize the time elapsed between the transfer of funds by the
government and the disbursement of funds by the grantee. Grantees may
be paid in advance, provided they maintain procedures to minimize the time
elapsing between the transfer of funds by the government and the
disbursement of funds by the grantee. The Financial Guide recommends
that funds be drawn to handle disbursements to be made immediately or
within 10 days.

      We interviewed Jane Doe officials, reviewed drawdown procedures,
and verified the deposits of grant funds into the Jane Doe bank account.
Jane Doe used its financial services contractor to calculate drawdowns based
on grant-funded expenditures included in its accounting records and
reported on Jane Doe’s monthly profit and loss report for each grant. We
noted no exceptions in our review of the Jane Doe drawdown process.
Because Jane Doe incurred and paid grant-related expenditures using Jane
Doe funds first, and then requested reimbursement through the grant
drawdown process, we concluded that no advance payments were made to
Jane Doe.




                               - 21 -
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



Budget Management and Control

      The OJP Financial Guide addresses budget controls surrounding
grantee financial management systems. According to the Financial Guide,
grantees are permitted to make changes to their approved budgets to meet
unanticipated program requirements. However, the movement of funds
between approved budget categories in excess of 10 percent of the total
award must be approved in advance by the awarding agency. In addition,
the Financial Guide requires that all grantees establish and maintain an
adequate system for accounting and internal controls.

       Jane Doe received a final Financial Clearance Memorandum for each of
its grant awards that contained the approved and itemized budget for its
awards. According to Jane Doe officials and its financial services contractor,
Jane Doe relied on its accounting software package to produce both a
transaction detail report and a separate profit and loss report for each grant
award. Jane Doe used information from these reports to ensure that it
remained within its approved budget for each award. The transaction detail
report included the total grant expenditures summarized by each approved
budget category. The approved budgets for each grant and the
expenditures reported in Jane Doe’s profit and loss reports are addressed
below.

      We asked Jane Doe officials and the financial services contractor how
they ensured compliance with the Financial Guide’s budget management
requirements. The financial services contractor told us that grant
expenditures are tracked on a monthly basis as incurred, and these
expenditures are reconciled to the approved budget categories within Jane
Doe’s monthly transaction detail report.

      For each grant we compared the total expenditures by budget
category from the Jane Doe accounting system to the budget categories
established by OVW’s final budget revision. We determined that Jane Doe
expenditures were within the allowable 10 percent deviation allowance. For
each grant, we also found evidence that the financial services contractor
regularly reconciled actual expenditures to the approved budget.

Monitoring of Contractors

      According to the OJP Financial Guide, grantees should ensure that they
monitor organizations under contract in a manner that ensures compliance
with their own overall financial management requirements. At the time of
our audit, we interviewed Jane Doe officials to determine the extent of their


                               - 22 -
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



monitoring activities for a software development contractor, a database
development contractor, the financial services contractor, and a third-party
training provider.

      We generally found evidence of contractor oversight for three of its
four awards. The exception pertained to grant 2007-TA-AX-K039 and the
use of a third-party training provider (training contractor). Jane Doe served
as the fiscal agent for the training contractor, and in this role assumed
responsibility for all of the expenditures incurred by the training contractor
and ultimately reimbursed through the grant. Jane Doe did not have a
formal contract with the training contractor but instead retained an informal
e-mail that delineated the training contractor’s obligation.

      Jane Doe reimbursed the training contractor for its incurred
expenditures. However, the Executive Director told us that Jane Doe has
never assessed the capacity of the training contractor to adhere to the terms
and conditions of the award. The Executive Director could not demonstrate
to us that a standardized monitoring process was in place for this training
contractor. In addition, the Executive Director told us that she did not
attend any of the training classes conducted by the contractor, or monitor
contractor expenditures. As noted above, we identified per diem
expenditures that exceeded the allowable per diem rate by $6,104, and
unallowable attrition fee expenditures that amounted to $2,352. These
unallowable expenditures are evidence that Jane Doe did not effectively
monitor the training contractor.

       In our opinion, Jane Doe should more aggressively monitor its
contractors. If formalized policies and procedures had existed, it is less
likely that the contractor would have been reimbursed for unallowable
expenditures. Strong internal controls that address contractor monitoring
help to ensure that grant funds are spent for their intended purpose and
improve the likelihood of achieving grant funded goals and objectives.

Compliance with Award Conditions

       Special conditions include the terms and conditions for the awards.
The special conditions may also include special provisions unique to an
award. We reviewed the special conditions for each of Jane Doe’s awards
and determined that Jane Doe did not comply with a special condition
restricting payments to consultants in excess of $450 per day without prior
OVW approval. We found noncompliance with this special condition for grant
2007-MU-AX-0067 and the Recovery Act grant 2009-EU-S6-0048.



                               - 23 -
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



Consultant Fees Over Allowable Limit

      Special Conditions incorporated as part of Jane Doe’s
2007-MU-AX-0067 and 2009-EU-S6-0048 grant awards limited consultant
fees to no more than $450 a day. This special condition stipulates that a
detailed budget justification must be submitted and approved by OVW prior
to the obligation and expenditure of funds in excess of the $450 daily
threshold. To determine if Jane Doe complied with the special condition, we
reviewed Jane Doe invoices as well as OVW correspondence to verify that
consultant fees did not exceed $450 a day, or if consultant fees exceeded
$450 a day, they were approved by OVW.

       In its budget narratives for grant 2007-MU-AX-0067, Jane Doe
allocated $20,000 for a database consultant to develop a computer system
that would track domestic violence and sexual assault incidences in
Massachusetts. Jane Doe did not disclose to OVW, in its supplemental
budget applications, the daily or hourly consultant rate it expected the
consultant to charge. We reviewed the database consultant’s invoices and
determined it routinely charged Jane Doe between $100 and $150 per hour,
based upon the nature of work performed. The consultant submitted
multiple invoices charging more than $450 a day. Our calculation of
questioned costs included only those invoice line items for specific billable
activities, such as program installation, where the fee charged exceeded
$450.

      We reviewed Jane Doe’s correspondence with OVW and did not identify
any approval by OVW for consultant fees in excess of $450 per day. As a
result, we questioned $10,031 as unallowable expenditures associated with
excess consultant fees. We asked Jane Doe officials why they exceeded
$450 per day for their consultant without seeking prior approval from OVW.
They acknowledged they lacked familiarity with the terms and conditions of
the award as well as the Financial Guide. In our view, without a good
working knowledge of the award requirements, the potential for incurring
unallowable costs is greatly increased.

      In its budget narrative for Recovery Act grant 2009-EU-S6-0048, Jane
Doe said that a website development consultant would be paid in excess of
$450 per day at a specified rate of $175 per hour. In December 2009, Jane
Doe selected a website development contractor. We interviewed OVW and
Jane Doe officials to determine if Jane Doe was in compliance with this
special condition. We asked the OVW Grant Manager for this grant to
determine if Jane Doe submitted a detailed pre or post-award request to
OVW seeking approval for consultant fees in excess of $450 per day. The


                               - 24 -
                   REDACTED – FOR PUBLIC RELEASE
                    REDACTED – FOR PUBLIC RELEASE 



grant manager told us that OVW had no evidence of such a request from
Jane Doe, apart from the budget accompanying the grant application.

        We asked Jane Doe officials why they did not seek additional approval
from OVW for consultant fees in excess of $450 per day. They told us they
felt they were in compliance with the special condition because Jane Doe
disclosed this fact in the grant budget that OVW ultimately approved.
Additionally, Jane Doe officials said that a portion of the project is not billed
at an hourly rate but rather is an advance deposit and therefore the special
condition was not applicable. However, we were also told by Jane Doe that
the remainder of the website development will be billed at a rate over $450
a day. At the time of our field work Jane Doe had not been billed with
consultant fees in excess of $450 per day. However, we consider this a
reportable matter and deem it prudent for Jane Doe to request from the
current OVW program manager specific written approval for this contractor
to bill in excess of $450 per day.

Accountable Property

Grant 2009-EU-S6-0048 (Recovery Act)

      The OJP Financial Guide states that grantees are required to be
prudent in the acquisition and management of property acquired with federal
funds. The guide also states that grantees must establish an effective
system for property management. Additionally, Jane Doe’s internal written
guidance stated that Jane Doe was to maintain detailed records of all
property and equipment with an identification and segregation of any
property and equipment acquired through government contracts.

       Jane Doe officials told us that technical purchases were reviewed by
the Office Manager and the senior Jane Doe official responsible for
authorizing the purchase. We reviewed documentation supporting the five
computers Jane Doe purchased and identified that the computers were
installed within Jane Doe employee offices and were used by Jane Doe
employees. We inventoried equipment purchased and found that the
equipment was properly marked as purchased with federal funds, used as
shown in the grant, and physically present and verifiable. However, the
computers were not included on a Jane Doe inventory list. Because we were
able to identify that the computer equipment was properly marked as
purchased with federal funds, used as shown in the grant, and physically
present at the time our audit, we noted no exceptions to accountable
property standards.



                                - 25 -
                    REDACTED – FOR PUBLIC RELEASE
                    REDACTED – FOR PUBLIC RELEASE 



Program Performance and Accomplishments

Grant 2007-EW-AX-K005

       Jane Doe is the lead agency in the Abuse Later in Life partnership.
The purpose of this grant was to fund the hiring of a project co-coordinator
who, in turn, would coordinate the overall efforts of the partnership,
including setting up meetings and training sessions, and reaching out to
partners for information and direction as needed. Jane Doe also assumed
the responsibility to report on performance measures and grant-funded
activities through the timely submission of complete semi-annual progress
reports. Jane Doe was to provide Abuse Later in Life training to Boston
Police Family Division detectives and police officers as well as Suffolk County
prosecutors.

       We reviewed grant expenditures and progress reports to evaluate the
extent of Jane Doe’s progress towards meeting its objectives of training
Boston police detectives, officers, and prosecutors. We found that Jane Doe
met its performance objectives for the Abuse Later in Life grant by providing
training for police officers and Suffolk County prosecutors.

Grant 2007-MU-AX-0067

        Jane Doe reported in its approved budget that funding for this grant
award was to support its ongoing programmatic activities directed toward
the coordination of state victims’ service activities as well as to collaborate
and coordinate with federal, state, and local entities engaged in activities
addressing violence against woman. Jane Doe said that to accomplish its
goals and objectives it would develop the following products: (1) a
computer system to track domestic violence and sexual assault incidences
within Massachusetts; (2) a newsletter and the administration of a website
to increase Jane Doe’s state-wide influence; and (3) training sessions for its
affiliates via the Jane Doe Training Institute. In order to meet its
programmatic objectives, Jane Doe allocated $328,315 or 61 percent of its
approved funding to personnel and fringe benefits. To assess if Jane Doe
accomplished its performance objectives, we interviewed Jane Doe officials
and reviewed progress reports, publications, and expenditures.

      We determined that Jane Doe met its programmatic objectives. In its
approved budget, Jane Doe allocated $20,000 to its database development
contractor for the development of the Jane Doe Data Project, a database
that would track domestic violence and sexual assault incidents within
Massachusetts. To determine if Jane Doe implemented the data project, we


                                - 26 -
                    REDACTED – FOR PUBLIC RELEASE
                    REDACTED – FOR PUBLIC RELEASE 



reviewed screenshots as well as payments to its database development
contractor. We concluded that the data project was operational and being
used by Jane Doe affiliates. We reviewed Jane Doe’s annual report, monthly
newsletters, and the Jane Doe website and concluded that Jane Doe made
progress toward increasing its state-wide voice. We reviewed progress
reports from December 2007 through December 2009 and concluded that
Jane Doe was providing and tracking the training and technical assistance it
provided to its affiliates. Because Jane Doe provided adequate technical
assistance, an operational crime tracking system, as well as effectively
increased its state-wide voice, we concluded that Jane Doe was meeting its
performance objectives.

Grant 2007 TA-AX-K039

       For this grant award, Jane Doe’s grant application stated that a third
party contractor was to provide two trainings, and in particular, conduct
advanced training pertaining to advocacy strategies to help survivors
develop the ability to achieve economic justice. Jane Doe’s grant application
said the curriculum to be used was designed to empower advocates to enrich
and expand advocacy with individual survivors, to organize within their
communities, and to build relationships with other social and economic
justice initiatives in their jurisdictions. Jane Doe’s grant application said the
contractor was to provide in-depth training on core skills, including safety
planning, intake/screening, dangerousness assessment, preserving
confidentiality, community organizing, protection order practices and
strategies, assisting immigrant survivors, engaging with faith communities,
critical thinking, and other advocacy techniques.

      In order to determine if the contractor was achieving its intended
performance accomplishments, we reviewed grant expenditures, program
performance reports, meeting conference rosters, and an OVW monitoring
report. As explained earlier in this report, we found that Jane Doe was not
adequately monitoring its training contractor specific to this grant award.
However, we did not identify any information in our review of grant-related
program performance materials that would indicate that the third party
contractor was not meeting its intended goals and objectives. Moreover, an
OVW monitoring report disclosed that the third party contractor appeared to
meet its intended goals in its training. The project period was extended to
June 30, 2010, so that seven additional audio conferences could be produced
and the initial trainings could be distributed via the Internet. Therefore, we
concluded that Jane Doe achieved its intended programmatic performance
objectives.



                                - 27 -
                    REDACTED – FOR PUBLIC RELEASE
                    REDACTED – FOR PUBLIC RELEASE 



Grant 2009-EU-S6-0048 (Recovery Act)

       Jane Doe’s grant application for this grant program said it wanted to
hire two temporary part-time positions for purposes of job creation.
Accordingly, Jane Doe intended to use grant funding to hire a new Chief
Operations Officer, Technical Assistance Director, compensate two part-time
positions, and enhance its website. The funding was to be used to promote
economic growth and to either create or retain jobs. In order to assess if
Jane Doe was achieving its intended performance accomplishments, we
reviewed performance reports and grant expenditures to determine if Jane
Doe was on track to achieve its performance objectives.

      We determined that Jane Doe was meeting program performance
objectives because it hired a permanent Chief Operations Officer and
awarded a contract to a website contractor for the development of its
website. Jane Doe has submitted a budget modification request to OVW to
make two temporary contractor employees part-time employees and to
change the title of its Technical Assistance Director to Director of
Membership because the duties are identical. We concluded that Jane Doe
was achieving its intended programmatic performance accomplishments.

Conclusions

       We found that Jane Doe did not fully comply with grant requirements
in the areas we tested. We found weaknesses in Jane Doe’s system of
internal control specific to its financial operations. We also found Jane Doe’s
employee budget allocations and personnel expenditures were not properly
allocated for the grants we tested. We identified unsupported and
unallowable expenditure charges to each of the grants, as well as
deficiencies in progress reporting, monitoring of contractors, and compliance
with other grant requirements. As a result of the deficiencies, we
questioned $638,298 in grant expenditures, or about 47 percent of the
combined total award budget for all grants.

Recommendations

We recommend that OVW:

1.	   Ensure that Jane Doe strengthens its internal controls to allow
      management greater access to its accounting records, to exercise more
      control and scrutiny of its financial operations, and to provide
      for greater supervisory review of the financial services contractor.



                                - 28 -
                    REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE 



2.	   Ensure that Jane Doe strengthens its internal controls to permit more
      effective monitoring and oversight of the Executive Director.

3.	   Ensure that Jane Doe establishes appropriate internal controls
      surrounding the distribution of personnel expenditures to awards that
      include the design and implementation of procedures to ensure that
      personnel allocations are completed accurately, supported by verifiable
      data, and have evidence of supervisory review.

4.	   Remedy $605,504 in unsupported personnel and fringe benefit
      expenditures for the grants.

5.	   Remedy $1,975 in unallowable personnel expenditures for purposes of
      fundraising charged to grant 2009-EU-S6-004.

6.	   Remedy $16,972 in total unallowable and unreasonable expenditures
      charged to grant 2007-MU-AX-0067. This total represents $12,691 in
      unallowable conference expenditures, which includes $487 in
      unallowable expenditures for alcohol and bar related charges.
      Additionally, this total includes $4,281 in unreasonable expenditures for
      exceeding lodging and M&IE per diem limits.10

7.	   Remedy $8,456 in conference-related expenditures charged to grant
      2007-TA-AX-K039, which includes $6,104 in unreasonable charges for
      exceeding lodging and M&IE per diem limits and $2,352 in unallowable
      attrition fee charges.

8.	   Remedy $1,441 in unallowable expenditures for the Executive Director’s
      bonus charged to grant 2007-MU-AX-0067.

9.	   Remedy $10,031 in unallowable consultant expenditures charged to
      grant 2007-MU-AX-0067.

10. Ensure that Jane Doe establishes appropriate internal controls that
    include the design and implementation of procedures to ensure that
    progress reports are filed on a timely basis in accordance with grant
    requirements.




       10
            The recommendation was revised from the draft report to separate the portion of
expenditures questioned as unallowable and unreasonable. In part, these questioned costs
relate to identical expenditures and any duplication will be removed from the total reported in
the Schedule of Dollar-Related Findings (Appendix II).

                                   - 29 -
                       REDACTED – FOR PUBLIC RELEASE
                  REDACTED – FOR PUBLIC RELEASE 



11. Ensure that Jane Doe develops a formal contractor monitoring program
    that includes written policies and procedures.




                              - 30 -
                  REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 

                                                                 APPENDIX I 



               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines and the terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal controls, (2) personnel, fringe benefits, and
non-personnel grant expenditures, (3) financial and progress reporting,
(4) drawdowns, (5) budget management and control, (6) monitoring of
contractors, (7) compliance with award special conditions, (8) accountable
property, and (9) program performance and accomplishments. We
determined that matching costs, indirect costs, and program income were
not applicable to these awards.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Our audit concentrated on but was not limited to the Cooperative
Agreements and Grants which respectively received their funding on
September 11, 2007, September 13, 2007, September 10, 2007, and
July 23, 2009. We audited OVW’s (1) Enhanced Training and Services to
End Violence Against and Abuse of Woman Later in Life Program Agreement,
(2) Statewide Coalition of Sexual Assault and Domestic Violence Program,
(3) Technical Assistance Program Call for Concept Papers Agreement, and
(4) OVW Recovery Act Grants to State Sexual Assault And Domestic Violence
Coalitions Program.

      Collectively, these grant awards totaled $1,341,410 in OVW funding.
Through February 16, 2010, Jane Doe drew down $1,029,363.93 from all
four grants.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audited against are contained in the applicable Code of Federal
Regulations and OMB Circulars cited in the OJP Financial Guide, General



                               - 31 -
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



Services Administration Travel Regulations, and the award documentation
for each respective grant.

      In conducting our audit, we tested Jane Doe’s grant activities in the
areas we previously cited above. In addition, we reviewed the internal
controls of Jane Doe’s financial management system specific to the
management of DOJ grant funds during the grant period under review.
However, we did not test the reliability of the financial management system
as a whole. We also performed limited tests of source documents to assess
the accuracy and completeness of reimbursement requests and financial
status reports. These tests were expanded when conditions warranted. We
tested all accountable property, or five units of computer equipment,
purchased with grant funds.




                               - 32 -
                   REDACTED – FOR PUBLIC RELEASE
                        REDACTED – FOR PUBLIC RELEASE 

                                                                               APPENDIX II 


                  SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                                 AMOUNT          PAGE

Unsupported personnel and fringe benefit                         $ 605,504            12
expenditures
Unallowable personnel expenditures for                               $1,975           13
fundraising

Unallowable conference charges on the basis                         $12,691           16
of alcohol served

Unreasonable lodging and per diem charges                           $10,385       16-17

Unallowable attrition fee11                                          $2,352           17

Unallowable bonus payment                                            $1,441           18
Unallowable consultant fees                                         $10,031           24
Total Questioned Costs:                                          $644,379


   LESS DUPLICATION12                                              ($6,081)

TOTAL DOLLAR-RELATED FINDINGS:                                  $ 638,298




Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




       11
          An attrition fee is a penalty fee applied by hotels or other facility rental companies
when the organization reserving a block of rooms does not book and use the rooms.

       12
            We questioned costs related to personnel and per diem charges for food and
lodging. These questioned costs relate to identical expenditures – though questioned for
different reasons – and, as a result, that portion of questioned costs is duplicated. We reduced
the amount of costs questioned by the amount of this duplication.

                                    - 33 -
                        REDACTED – FOR PUBLIC RELEASE
                               REDACTED – FOR PUBLIC RELEASE 

                                                                                                                            APPENDIX III 


                               JANE DOE, INC. 

                     RESPONSE TO THE DRAFT AUDIT REPORT 





                                                                               March 18,2011


             By EMA IL TQTIt OMAS.O.PlJ ER1.ERlQ.luS nOJ.GOv
             A .~ [) B v VIRST-C L,\ SS l\'I AIL


            Thomas O. Puener. Regiona! Alldit Manager
            U.S. Department of Justicc
            Office of the Inspector Genera!
            Philadelphia Regional Au dit Office
            701 Market Street, Suite 201
            Philadelphia, PA 19106

                      Rc:      Response to Draft Audil Report dated February 11.2011


            Dear Mr. Puerzer,

                     Jane Doe, Inc. ("JOI") welcomes the scrutiny with which you and your Office re viewed
            our operations and, as you kno w, WI! already have implemented many of your recommended
            refinements to our timesheet compilation, expense reporting and reimbursement protocols, and
            payroll documemation systems. We appreciate the detailed ways in which your Draft Audit
            Report ("Draft") will improve our internal systems afld bookkeeping, but we hope that your
            Office;f1 tum can apprec iate that bookkeepiflg is not the mission of JOt JD I's mission is to
            protect and heal the survivors of domestic violence and sexual assault, by promoting
            collaboration between our member organizations, shaping best practices, and providing up -to­
            date traini ng and technical assi~tance . we have worked very hard to apply each of the four
            grants your Office reviewed toward the advancement of that mission, and we therefore are
            particularly proud that you r Draji confirms that,!or each of the four grants, JDJ had either "mel
            its programma/ic objectives, " or "achieved irs intended programmatic performance objectives, "
            or "was achievillg irs intended programma/ic performance DccompliJhmen/s." Draji at pp. 24·
            26.

                    With appreciation for that acknowledg~ment of our programmatic Sllccess, 101
            nonctheless o ffe~ these corrections to the Draji, and respectfully asks that they be incorporated
            to insure the accuracy of the final r~port:

                  lJ.!Y.roll Documentation. The Draji claims thai "Jane Doe was not able to provide us with
           a signed copy ofth~ Execution Director's contractual agreement," and that "payments [inCluding
           bonus payments] madc to the Executive Director were made without any documented Board
           authorization or approval." Draji at pp. 10-11 (emphasis added). As                    of your
           Office knows, however, we did provide an unsigned copy of that agreement, by email to him on




14   e..-.."" S,,« •• SU )07
                        ,,.,   Bos,n.. M.""h. ' <!T' 02 \08   T 617 248 O ~H
                                                               :               f : 617 24 8 0902   n~il1D:   617 26) 2200   W: www. j.", I)o<.O'l




                                           - 34 -
                               REDACTED – FOR PUBLIC RELEASE
                REDACTED – FOR PUBLIC RELEASE 





Thomas O. Puener, Regional Audit Manager
U.S . Depanment o f Juslice
Office of the Inspector Gene ral
March 182011
Page 2


1une 28, 2010, explaining thai we simply had nO I by then found a signed copy. J've attached thai
email. and the signed signature page of the agreement , at I.ab..l. More importantly, in an email
to &            dated luly 22,2010, we explained Ih~t bonuses to the Executive Director were
detemlined by the Board pursuant to its Executive Compensation Policy (whic h previously had
been provided to your team). We heard nothing in response to that email, and therefore assumed
our reply had sufficed. To correct the Draji's mistaken inferences, however, we have a"ached at
Th.!l2: our July 22, 20 I 0 email; another copy of the Board-approved ExecUlive Compensation
Policy which provides for Board review of the Executive Director's compensation; a sample of
Board minutes, from January 13, 20 I 0, documcntinB Board review of the Executive Director's
perfomlance and compensation; and an example of wrillen approval, dated 1une 21, 2001, by the
Board chair, Ms. Gianakis, of bonus compensation to the Executive Director in June, 2010.
Please also note that such bonuses, when deemed eamed by the Board, have been awarded to the
Executive Director in lieu oj step increases in her base salary since 2007·2008. We again invite
Mr. Kranler's or your questions regarding the sufficiency of our documentation.

         DisallQwed Expense Charge of $487.00. The Draji notes an impermissible charge of
$487 for "alcohol and bar related expenditures" arising out of a November 2007 conference of
member organizations' Executive Directors and therefore disallowed reimbursement for "al!
activities and associated costs related to the conference," totaling $12,691. We have double­
checked OIl! records and admit this error. We regret it -- panicularly since the mistakenly
churged amount is less than 4% of the penalty which may be Icvied against JDI, namely, the
llmount of all costs llssociated with this very wonhwhile conference. I But most imporlllntly, we
assure you that this oversight was an aberration. 1Dl is wcll aWllre o f the rules on pennissible
charges llgainst granls, and we are meticulous about reviewing itemized requests for
reimbursement to ensure compliance with those rules. I have attached at Tah 4 just two
examples·· taken from requests for reimburscment submi"ed soon after the chargc your Office
found -- to document the detail of our usual review: the first (dated June 6, 2008) noting "$9.00
Pinot Grigio disallowed" by 1DI; and thc second (dmed May 28, 2009) noting that "1Dl can' , pay
for $77.00 charge for alcohol."

        Database Consultant's Hourly (Not Daily) Fees. Thc Draft correctly notes that JDI
"allocated $20,000 to a database consultant for the development of a computer system that would
track domestic violence and sexual assault incidences [as reported to JDI member agencies) in
Massachusetts," and thaI that consultant " routinely charged Jane Doe between $) 00 and $1 SO
per hOllr based upon the work pcrfonned." Draft al p. 22 (emphasis added). Bul without citing
any other facts, the Draji then mistakenly infers that JDI "exceeded $450 per day for [this]
consultant," and "did not identify any approval by OVW for consultanl fees in excess of$450


          We recognize thai, atso with regard to;> this conference, the Draft claims JOI "incurred room "huge. of
5285 per person ." Draft at p. 15 (emphasis added). That is not correct. As documenled by the itemization from the
hOlel (an ache<! at IPJU) , the room 'harge was only 1141.50 per person. with lhe remaining 5142.50 asscssed. as
part ofa package rale, for food and conference s~rvice • .




                            - 35 -
                REDACTED – FOR PUBLIC RELEASE

                                             

               REDACTED – FOR PUBLIC RELEASE 





Thomas O. Puerler, Regional Audit Manager
U.S Department of Justice
Office of the Inspector General
March 182011
Page 3


per day." Id. As a result o f this mistaken inference, you have "questioned $10,031 .
associated with excess co nsultant fees." Draft at p. 23.

          In truth, however, 1Dl did report the full cost of this consultant's contract, $40,000, in the
"Budget Detail Workshee t and Narrative" portion of the grant application (at tached at Tab 5)
wh ich was originally rev iewed -- and approved -- by OVW. Thllt co nsul tant then billed for its
work on a project basis, or for certain services on an hourly basis, but it did not bill on a per-day
basis, nor did its invoices evcr clustcr hourly charges on a per-day basis, so JDI never believed it
necessary to request any additional approvals for any charges "in excess of 0$450 per day."
Moreove r, the consultant's invoices (which J've also enclosed at llQj) itemize the services
which were rendered on an hourly basis, but they total only 169 hours over the lO-month span of
the consultant's bi lling period. That ave rages just over eight hours per month, or two hours per
week, and is consistent with 1DI 's recollection of the pace of the hourly work. Unless you have
some other basis for the inference that our consultant did indeed charge fees "in excess of 0$450
per day," we ask that you withdraw your challenge to the $10,03 1 investment we made in th is
VlIlUlI hle d:llllbase-bui lding worle

         Time Sheet Detail. Based on what it calls u a judgmental sample," the Draft found Ihat
some subset of the literally thousands of time sheets completed during the grant periods "did not
break out lhe speci fic gran t where work was being perfonned," and further, Ihal "thc employee's
timeshttt we reviewed had time recorded and approved as fundraising." Draft pp. 12- 14
(emphasis added). Based on th is limited review, and the impennissible entry for "fundraising"
found On this Single timesheet, you have "questioned $605,50<1, or the entire approved budgel for
personnel and fringe benefits expenditures jar af! jour grants as unsupportcd," as well as
"SI ,975 or Ihe percentage of the timesheets we tested that identified fundraising hours wotked by
the pan-time employee as unallowable." Draft at pp. I J-I <I (emphasis added). We understand,
and accept responsibility for, the 0$ I ,975 challenge IIrising OUt of our part-time employee's
soli tary mistake, but we ask that you rttonsidcT the challenge to our entire approvcd budgct ..
the full $605,504 -- on two primary grounds.

       First, as yOIl may no w know, we have worked with                         ,a Fi nancial
Grants Management Specialist in OV W, to cnsure that each of her and her colleagues' specific
recommendations for the redesign of ou r timesheets has bcen implemented so that time units are
now separately accounted for, by grant, on every time sheet. I've attached at IM....Q a copy of our
most recent email exchange, from September 2010, docum enting that collaboration.

         Second, while JDI did not previously realize that employees had to break out approved
work by grant project on a daily basis, we always sau8ht (and obtained) approval from OVW for
the specific percentage of overall work lime that identified employees would be devoting to
iden tified (and approved) projccts as specified in our grant applications. Moreover, on a daify
basis, we did require employees to break OUI separately, and specificall y identi fy, any ti me units
which were nOI devoted [0 one of these approved " Program[s]," and requi red that time units




                           - 36 -
               REDACTED – FOR PUBLIC RELEASE

                                            

                REDACTED – FOR PUBLIC RELEASE 




Thomas O. Puerzer, Regional Audit Manager
U.S. Department of lustice
Office of the Inspector General
March 18 20 11
Page 4


devoted to tasks outside the approved scope of each grant application be plainly denoted as
"DEVELOPMENT" or " LOBBYING." There was no effort to conceal or confuse here; only a
good-faith decision to serve efficiency by requiring employees separate ly to identify time spent
on unapproved daily tasks rather than enumerating every daily task undertaken to further a
previously approved grant objective. I have attached at ilh.l one such itemization of
employeesltimeJtasks from one approved grant application, as well as one example of a time
sheet which clearly identifies time spent on unapproved tasks.

        Third, the OMB Circular to which the Draft often refers recognii'-es that, "where a non­
profit organization has only one major function," it may allocate certain of its "indirect costs"
(meaning ''those that have been incurred for common or joint objectives") by a "simplified
allocation method." OMB Circular No. A-J 21 (revised May 10,2004) at p. 6. Moreover, the
Circular wisely counsels thaI, "Actual conditions shall be taken into account in selecting the
base to be used in allocating the expenses in each grouping to benefitting functionsj" and that
"logic and reason" are among the "essential consideration[s)" in any such allocation. Id. at p. 8.
We endorse this common-sense approach, and while we now shall ensure that JOI employees
meet the letter of OVW's timesheet requirements, we respectfull y ask that you review and
consider our past compliance with the spirit ofthcse requirements before dec iding whether the
full 5605,504 awarded under the applicable grants must, in fairness, be forfeited by JOI.

        Monitoring of Our Training Contractor. We appreciate the Draft's acknowledgement of
sufficient "contractor oversight [by 10I] for three of its four awards," but we wish to address the
one "exception" noted -- with regard to a training contractor for which 101 served as fiscal agent
- by meeting your team's apparent request for "evidence that a standardized monitoring process
was in place for this training contractor." Draft at p. 21. 101 's collaboration with this training
resource, C ivil Legal Institute ("CLI'') has been a long, close and immensely valuable one for all
of lDl's member organizations as well as victims' advocates and service providers from across
the country. That relationship was first set out in an itemized agreement (admittedly sent in an
email given the parties' fam iliarity with each other) that did indeed "de lineat[e] the training
contractor's obligation." Draft at p. 21. (I ' ve attached another copy of that delineation, dated
December I, 2006, at Tab 8.)

        More importantly, 101 has monitored the costs, content and effectiveness of each CLI
training conducted pursuant to that relationship, by, among other thi ngs: requiring and
reviewing written " Project Narratives" for each CLI training session, including specification of
educational goals, program format and length, target audience, and follow-up " [aJssessment ...
after each event [toJ ask participants to reflect on the eLi content as well as the work achieved
upon their return ... " (a sample Project Narrative is attached at Thlt.2). Project costs are
similarly monitored, by requiring and reviewing extensive " Budget Detail Worksheets" for
upcoming CLI initiatives (a sample, showing 58 separate cost items, is attached at Thl!...lQ). And
when CLI presents a particular training session, 101 confirms achievement o f the project's goals
by requiring and reviewing the program's documentation o f " Leaming Objectives," "Topics and




                            - 37 -
                REDACTED – FOR PUBLIC RELEASE

                                             

                REDACTED – FOR PUBLIC RELEASE 




lbomas O. Puerz.er, Regional Audit Manager
U.S. Department of Justice
Office of the Inspector General
March 18 20 11
Page 5


Faculty" (which typically includes an hour·by·hour program agenda and identifies faculty and
eurriculum for each session), and the session's full list of attendees. (I have attached copies of
each ofthcse from a typical session at I!l!...ll.) Put simpl y, while we take to heart the Draft's
recommendation of " more aggressive monitoring," in this instance, we respectfully submit that,
given our long and close collaboration with C LI's staff and faculty, and the regular steps outlined
above, our monitoring of CLI has been appropriately aggressive and consistent wi th the effective
contractor ovcrsight your team confinned with regard to our othcr thrce awards. Draft at p. 21.

         Let me end where I began, by confinning that J01 already has begun to do better in its
tracking and reporting detail, but proudly·· and gratefully·· noting that, for each grant your
Offer rev iewed, J01 has indeed " met its programmatic objectives," and we've succeed at that in
at least these principal ways:

       (1)     The state coalition grant has allowed 101 to improve coordination of victims'
               services, and criminal justice, health and other complementary support systems.
               For example, these funds supported J01's successful focus on preventing
               domestic v iolence homicides in Massachusetts. JUI, with its member programs,
               has influenced how systems, advocates and the public view such homicides, and
               our efforts have improved the homicide prevention practices of local programs,
               prosecutors and law enforcement. These efforts have recently been recogn ized by
               the White House - the President's FYI 2 budget includes speci fi c funding for
               other states to replicate the homicide preventio n practices and models begun here
               in Massachusetts;

       (2)     W ith the Abuse in Later Life grant, J01 has strengthened response and
               investigation of Abuse in Later Life complaints and support for victims of such
               abuse. For example, 101 supported the Boston Po lice Department in adopting best
               practices for responding to complaints of sexual and domestic violence against
               elders, and organized a training collaboration among the Boston Police
               Department's elder abuse detectives, the Suffolk County OA's Office's elder
               crimes prosecutor, and advocates to work to improve system response and justice
               for elder victims;

       (3)     As the fiscal agent for a national technical assistance project, J01 has supported
               legal advocates in state coalitions and local sexual and domestic violence
               programs, as well as private bar and legal services attorneys throughout the
               country, by keeping them current on imponant legal developments. In particular,
               through conferences, webinars and other training venues, JOI's Civil Legal
               Instllute project has ensured that this community of legal advocates continued to
               have opportunities for meeting and learning; and




                            - 38 -
                REDACTED – FOR PUBLIC RELEASE

                                             

                REDACTED – FOR PUBLIC RELEASE 




Thomas O. Puerzer, Regional Audit Manager
U.S. Department of Justice
Office of the Inspector General
March 18 2011
Page 6


       (4)     Recovery Act funding allowed JOI to improve its ability to communicate with its
               members and the public, including victims and survivors, by updating JOl's
               website and board orientation manual and bringing 21n century communication
               technology and learning tools to JDI member programs and board members. In
               particular, JDI created new tools to enable victims to locate critical services, and a
               password-protected members-only resource to improve communication between
               local services providers. Within months, JOI will release a valuable planning
               document to further statewide priorities for the provision of sexual violence
               services.

        If you have questions about any of our proposed corrections to the Draji, or our requests
for reconsideration, or if you simply need more data, we remain ready to assist you and your
team.

                                                      Very truly yours,


                                                                    reJ~
                                                      Mary R. uby e·
                                                      Execut" e Director
                                                                              '""--I
cc:    Peter A. Biagetti, Esq.
       (with enclosures)




                                                                                                        I




                            - 39 -
                REDACTED – FOR PUBLIC RELEASE

                                             

                 REDACTED – FOR PUBLIC RELEASE 

                                                                                            APPENDIX IV 


             OFFICE ON VIOLENCE AGAINST WOMEN 

            RESPONSE TO THE DRAFT AUDIT REPORT 




                                                    u.s. Department of Justice
                                                    Office on Vi olence Against Women




                                                    W(uliillgtOIl,   D.C 20530

                                                                                 March 29, 2011


MEMORANDUM


TO:                  Thomas O. Puerzer
                     Regional Audit Manager
                     Philadelphia Regional Audit Office

FROM:                Susan B. Carbon
                     Director
                     Office on Violence Against Women

                     Rodney Samuels       \l   0
                     Audit Liaison      ~
                     Office on Violence Against Women

SUBJ ECT:            Office on Violence Against Women Grants to Jane Doe, Inc. Draft
                     Report


This memorandum is in response to your correspondence dated February 11 , 2011 transmitting
the above draft audit report for Jane Doe, Inc. We consider the subject report resolved and
request written acceptance of this action from your office.

The report contains eleven recommendations and $638,776 in unsupported and unallowable
grant expenditures. The Office on Vio lence Against Women (OVW) agrees with the
recommendati ons and is committed to working with the grantee to address each item and bring
them to a close as quickly as possible. The following is an analysis of the audit
recommendations:




                             - 40 -
                 REDACTED – FOR PUBLIC RELEASE
           REDACTED – FOR PUBLIC RELEASE 





I.   Ensure that J ane Doe strengthens its internal controls to a llow management
     greater access to its accounting records, to exercise more control and scrutiny
     of its fin ancial operations, and to provide for greater supervisory review of the
     finan cial services contractor.

     We agree with this reco mmendation. We will coordinate with Jane Doe, Inc. to
     ensure that they strengthen its internal controls to allow management greater access
     to it accounting records, to exercise more control and scrutiny of its financial
     operations, and to provide for greater supervisory review of the financial services
     contractor.

2.   Ensure that Jane Doc strengthens its internal controls to permit more effective
     monitoring and oversight of the Executive Director.

     We agree with this recommendation. We will coordinate with Jane Doe, Inc. to
     ensure that they strengthen their internal controls in order to permit more effective
     monitoring and oversight afthe Executive director.

3.   E nsure that Jane Doe establishes appropriate internal controls surrounding the
     distribution of personnel expenditures to awa rds that include the design and
     im plementation of procedures to assure that personnel allocations are
     co mpleted accurately, supported by verifia ble data, and have evidence of
     supervisory review.

     Vle agree with this recommendation. We wil1 coordinate with Jane Doe, Inc. to
     ensure that they establish appropriate internal controls surrounding the distribution
     to awards that include the design and implementation of procedures to assure that
     personnel allocations are completed accurately, supported by verifiable data, and
     evidence of supervisory review.

4.   Remedy the $605,504 in unsupported personnel and fringe benefit expenditures
     for the grants.

     We agree with this recommendation. We will coordinate with Jane Doe, Inc. to
     remedy the $605,504 in unsupported personnel and fringe benefit expenditures for
     the grant.

5.   Remedy SI,975 in unallowable personnel expenditures for the purposes of
     fundraising charged to the 2009-EV-S6-0048 grant.

     We agree with this recommendation. We will coordinate with Jane Doe, Inc. to
     remedy the $1,975 in unallowable personnel expenditures for the purpose of
     fundraising charged to the 2009-EU-S6-0048 grant.




                                          2




                       - 41 -
           REDACTED – FOR PUBLIC RELEASE

                                        

            REDACTED – FOR PUBLIC RELEASE 





6.    Remedy the S13,344 in una llowable expenditures for exceeding Lodging and
      Meals and Incidental Expense (MIE) per diem limits for the 2007-MU-AX-0067
      grant, which is inclusive of $487 in unallowable cxpenditures for alcohol and
      bar related charges to the 2007-M U-AX-0067 grant.

      We agree with this recommendation. We will coordinate with Jane Doe, Inc. to
      remedy the $13,344 in unallowable expenditures for exceedin g Lodging, Meals and
      Incidental Expense (MIE) per diem limits for the 2007-MU-AX-0067 grant, which
      is inclusive of $487 in unallowable expenditures for alcohol and bar related charges
      to the 2007-MU-AX-0067 grant.

7.    Remedy the $8,456 in unallowable conference-related expenditures charged to
      the 2007-TA-AX-K039 grant, which is inclusive of $2,352 in unallowable
      attrit ion fcc cha rges to the 2007-TA-AX-K039 grant.

      We agree with this recommendation. We will coordinate with Jane Doe, Inc. to
      remedy the $8,456 in unallowable conference-related expenditures charged to the
      2007-TA-AX-K039 grant, which is inclusive of$2,352 in unallowable attrition fee
      charges to the 2007-TA-AX-K039 grant.

8.    Remedy SI,441 in unallowable expenditures for the Executive Director's bonus
      charged to the 2007-MU-AX-0067.

      We agree with this recommendation. We will coordinate with Jane Doe, Inc. to
      remedy the $1,441 in unallowable expenditures for the Executive Director's bonus
      charged to the 2007-MU-AX-0067.

9.    Remedy S10,031 in unallowable consultant expenditures cha rged to the 2007-
      MU-AX-0067 grant.

      We agree with this recommendation. We will coordinate with Jane Doe, Inc. to
      remedy the $10,03 1 in unallowable consultant expenditures charged to the 2007-
      MU-AX-0067 grant.

10.   Ensurc that Jane Doc establishes appropriate internal controls that include the
      design and implementation of procedures to assure that progress reports are
      filed on a timely basis in accordance with grant requirements.

      We agree with this recommendation. We will coordinate with Jane Doc, Inc. to
      ensure that they establish appropriate internal controls that include the design and
      impl ementation of procedures to assure that progress reports are filed on a timely
      basis in accordance with grant requirements.




                                           3




                        - 42 -
            REDACTED – FOR PUBLIC RELEASE

                                         

                     REDACTED – FOR PUBLIC RELEASE 





      11.      Ensure that Jane Doc develops a formal contractor monitoring program that
               includes written policics and procedures.

               We agree with this recommendation. We will coordinate with Jane Doe, Inc. to
               ensure that they develop a formal contractor monitoring program that includes
               written policies and procedures.




We appreciate U opportunity to review and comment on the draft report. We wi ll continue to
                le
work with Jane Doe, Inc. to address the recommendations. If you have any questions or require
additional information, please contact Rodney Samuels of my staff at:
(202) 514-9820.

cc:         Richard Theis
            Assislance Director
            Audit Liaison Group
            Justice Management Divi sion

            Angela Wood
            Budget Officer
            Office on Violence Against Women

            Kimberly Galvan
            Program Specialist
            Office on Violence Against Women




                                                  4




                                 - 43 -
                     REDACTED – FOR PUBLIC RELEASE

                                                  

                   REDACTED – FOR PUBLIC RELEASE 

                                                                 APPENDIX V 



 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY OF

           ACTIONS NECESSARY TO CLOSE THE REPORT 


Analysis of Jane Doe, Inc. and OVW Responses

      We provided a copy of our draft report to Jane Doe, Inc. (Jane Doe)
and the Office on Violence Against Women (OVW) for comment. In its
response, Jane Doe did not specifically address each recommendation but
provided general comments on some of the issues we raised. From our
review of the response, Jane Doe did not fully agree or disagree with most of
our 11 recommendations and said that it already has implemented many of
our recommendations specific to timesheet compilation, expense reporting,
reimbursement protocols, and payroll documentation systems. Jane Doe
also noted its programmatic accomplishments and acknowledged that our
report will help to improve its internal systems and bookkeeping.
Additionally, the Jane Doe response said that we incorrectly questioned costs
concerning consultant daily fees exceeding $450 per day, unallowable
lodging, meals and incidental expenditures, and unsupported payroll
expenditures. Jane Doe also contended that the development of a
formalized contractor monitoring program is unnecessary and commented
that the language we used to describe an undocumented bonus payment to
the Executive Director was inaccurate.

      We reviewed and fully considered each of the issues raised by Jane
Doe in its response to our report. For each instance in its response where
Jane Doe said our report was incorrect, we address that issue in detail under
the specific recommendation to which it pertains. After conducting our
analysis, we determined that the report was factually accurate and the
issues were clearly stated. However, we did make one change in the
amount of a questioned cost and one change to the classification of a
questioned cost from unallowable to unreasonable.

       Specifically, on page 16 of this report, we recalculated the questioned
cost determination for lodging at a June 2009 conference charged to grant
2007-MU-AX-0067. In this instance, for our draft report we originally
questioned the full amount of $653 as unallowable lodging charged to the
grant at a rate that exceeded the lodging per diem limit set by the General
Services Administration (GSA). For this report, we now question $174 as
unallowable lodging, which is the amount charged to the grant in excess of
the allowable GSA rate. This change resulted in a reduction of $479 in
questioned costs and is based on our further review of the applicable OJP



                               - 44 -
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE 



Financial Guide and a determination that, in this instance only, the excess
actual cost over the allowable GSA imposed limit should be questioned.

       The other change to this report is on pages 15, 16, and 17 for grant
awards 2007-MU-AX-0067 and 2007-TA-AX-K039, respectively. In this
instance, we changed our classification of $10,385 in total questioned costs
from unallowable to unreasonable to more accurately reflect our basis for
questioning these costs. This change was based on additional
documentation and analysis where we determined $4,281 in expenditures
charged to grant 2007-MU-AX-0067 were unreasonable based on
significantly exceeding the GSA rate for lodging and food at two separate
grant conferences. Additionally, $6,104 in expenditures charged to grant
2007-TA-AX-K039 were considered unreasonable based on significantly
exceeding the allowable GSA per diem limits for breakfast, dinner banquet
charges, and associated refreshments at two separate grant conferences.

      In its response to our report, OVW agreed with all 11 recommendations.
We consider each of the 11 recommendations resolved based on OVW’s
agreement. The status and actions necessary to close each recommendation,
along with a discussion of the responses from Jane Doe and OVW, are
provided below.

Summary of Actions Necessary to Close Report

1. Resolved. Ensure that Jane Doe strengthens its internal controls to 

   allow management greater access to its accounting records, to exercise 

   more control and scrutiny of its financial operations, and to provide for 

   greater supervisory review of the financial services contractor. 


   In its response, Jane Doe did not specifically address this
   recommendation, but did acknowledge that it is already implementing
   many of the recommendations cited in this report.

   The OVW response agreed with our recommendation. This
   recommendation is resolved based on OVW’s concurrence and agreement
   to work with Jane Doe to ensure it establishes procedures to allow
   management greater access to its accounting records, to exercise more
   control and scrutiny over its financial operations, and to provide greater
   supervisory review over its financial services contractor. This
   recommendation can be closed when we receive documentation
   demonstrating that Jane Doe developed and implemented effective
   internal control policies and procedures regarding the abovementioned
   items.


                               - 45 -
                   REDACTED – FOR PUBLIC RELEASE
                  REDACTED – FOR PUBLIC RELEASE 




2. Resolved. Ensure that Jane Doe strengthens its internal controls to
   permit more effective monitoring and oversight of the Executive Director.

  In its response, Jane Doe did not directly address this recommendation.
  However, Jane Doe disagreed with the report’s statements regarding
  payments made to the Executive Director without any documented board
  authorization or approval. Jane Doe also contended that there was
  Board Review of Executive Director performance and compensation.
  Additionally, Jane Doe provided with its response documentation that it
  contends supports its Executive Compensation Policy, a sample of Board
  minutes from January 13, 2010, documenting Board review of the
  Executive Director’s performance and compensation, and a copy of an
  e-mail from the Board Chairperson dated June 21, 2010, that it contends
  is written approval of bonus compensation to the Executive Director in
  June 2010.

  At the time of our fieldwork, Jane Doe officials were unable to provide
  documentation that demonstrated effective monitoring and oversight of
  the Executive Director. We reviewed the documentation provided by
  Jane Doe in its response and determined that it did not adequately
  support effective Executive Director scrutiny. The Executive
  Compensation Policy provided by Jane Doe was applicable in September
  2009 and there was no evidence that it was implemented nor would it
  have addressed the December 2008 bonus payment we questioned as an
  unallowable expenditure. The January 2010 Board minutes provided by
  Jane Doe did not indicate what the results of the Executive Director’s
  annual review were or if the Executive Director’s annual performance
  review entitled her to either a merit or cost of living based bonus.
  Finally, the e-mail from the Jane Doe Board Chairperson in June 2010
  was evidence of approval for an Executive Director bonus payment for
  fiscal year 2010 and did not address the December 2008 bonus payment
  we questioned.

  The OVW response agreed with our recommendation. This
  recommendation is resolved based on OVW’s concurrence and agreement
  that that it will coordinate with Jane Doe to ensure that Jane Doe
  strengthens its internal controls to provide greater monitoring and
  oversight over its Executive Director. This recommendation can be
  closed when we receive documentation demonstrating that Jane Doe
  developed and implemented effective internal controls to provide greater
  monitoring and oversight over its Executive Director.



                              - 46 -
                  REDACTED – FOR PUBLIC RELEASE
                  REDACTED – FOR PUBLIC RELEASE 



3. Resolved. Ensure that Jane Doe establishes appropriate internal
   controls surrounding the distribution of personnel expenditures to awards
   that include the design and implementation of procedures to assure that
   personnel allocations are completed accurately, supported by verifiable
   data, and have evidence of supervisory review.

  In its response, Jane Doe did not directly address this recommendation,
  but said that it had already implemented our recommendations with
  respect to timesheet compilation as well as payroll documentation
  systems. Additionally, Jane Doe provided documentation demonstrating
  the redesign of its employee timesheets addressing our recommendation.

  The OVW response agreed with our recommendation. This
  recommendation is resolved based on OVW’s concurrence and agreement
  to coordinate with Jane Doe to ensure that it establishes appropriate
  internal controls surrounding the distribution of personnel expenditures
  to awards that include the design and implementation of procedures to
  ensure that personnel allocations are completed accurately, supported by
  verifiable data, and have evidence of supervisory review. This
  recommendation can be closed when we receive documentation
  demonstrating that Jane Doe has developed and implemented effective
  internal controls associated with the distribution of personnel
  expenditures.

4. Resolved. Remedy the $605,504 in unsupported personnel and fringe
   benefit expenditures for the grants.

  In its response, Jane Doe was not in full agreement with our
  recommendation. Jane Doe’s response stated that they have redesigned
  their timesheets so that time units are accounted for by grant on every
  time sheet. Jane Doe also stated that employees previously recorded
  their time based on project rather than funding source. Finally, Jane Doe
  requested that the OIG utilize the spirit of the indirect costs section
  under 2 C.F.R. Part 230 (formerly known as OMB-Circular A-122) as
  alternate criteria. However, beyond including documentation supporting
  the new timesheets being used by employees, Jane Doe did not provide
  supporting documentation adequately demonstrating that employee
  timesheets supported personnel and fringe benefit expenditures.
  Moreover, in its response Jane Doe conceded that it did not previously
  realize that employees had to break out approved work by grant funded
  project. In our view, this admission confirms our detailed audit testing
  and analysis that Jane Doe did not have an effective system in place to



                              - 47 -
                  REDACTED – FOR PUBLIC RELEASE
                 REDACTED – FOR PUBLIC RELEASE 



  allocate employee personnel effort and associated fringe benefit charges
  to a specific grant award.

  The OVW response agreed with our recommendation. This
  recommendation is resolved based on OVW’s concurrence and agreement
  to coordinate with Jane Doe to remedy the $605,504 in unsupported
  personnel and fringe benefit expenditures for the grants. This
  recommendation can be closed when we receive documentation
  demonstrating that Jane Doe has remedied the $605,504 in unsupported
  personnel and fringe benefit expenditures to OVW.

5. Resolved. Remedy $1,975 in unallowable personnel expenditures for
   the purposes of fundraising charged to the 2009-EU-S6-0048 grant.

  In its response Jane Doe said it understood and accepted responsibility
  for the $1,975 charge for fundraising and said it resulted from a part-
  time employee’s solitary mistake. The Jane Doe response offered no
  further explanation on what internal control improvements it intended to
  implement to preclude future occurrences of this instance of
  noncompliance with grant requirements.

  The OVW response agreed with our recommendation. This
  recommendation is resolved based on OVW’s concurrence and agreement
  to coordinate with Jane Doe to remedy the $1,975 in unallowable
  personnel expenditures for the purpose of fundraising charged to the
  2009-EU-S6-0048 grant. This recommendation can be closed when we
  receive documentation demonstrating that Jane Doe has remedied the
  $1,975 in unallowable personnel expenditures for the purpose of
  fundraising.

6. Resolved. Remedy the $13,344 in unallowable expenditures for
   exceeding lodging and M&IE per diem limits for grant 2007-MU-AX-0067,
   which includes $487 in unallowable expenditures for alcohol and bar
   related charges to grant 2007-MU-AX-0067.

  In its response, Jane Doe agreed in part to our recommendation. Jane
  Doe agreed that it charged the grant $487 for an unallowable
  expenditure for alcohol but contended that the alcohol charge was an
  aberration and that Jane Doe was well aware of the rules on permissible
  charges against grants. To support its statements, Jane Doe provided
  two examples of a process it has in place that identified instances in
  which alcohol expenditures were disallowed as charges to a federal
  grant. However, as noted in the report, the relevant OJP Financial Guide


                             - 48 -
                 REDACTED – FOR PUBLIC RELEASE
                REDACTED – FOR PUBLIC RELEASE 



states that if alcohol is present at an event, the event is considered to be
a social event. As such, the costs associated with an event where
alcohol is present are considered unallowable even if alcohol is not
charged to the grant. For the examples provided by Jane Doe, the
removal of alcohol charges would not eliminate the fact that the function
was a social event according to the OJP Financial Guide, and as a result,
all of the costs associated with the events should not be charged to a
grant.

Jane Doe also took exception with our determination for questioning
costs on a separate basis with regard to the lodging charges of $285 per
conference attendee. In its response, Jane Doe provided documentation
that was requested but not provided during fieldwork. This supporting
documentation disclosed that $143 per person was spent for nightly
lodging. In reviewing this additional documentation, we note that $143
is still in excess of the $92 maximum GSA allowance for per diem lodging
at this location. However, from our review of documentation submitted
by Jane Doe with its response, we determined that $2,020 was
adequately supported and we will lower our questioned costs for this
report by that amount. Additionally, after a further review of the OJP
Financial Guide, we determined that this report would only question the
excess actual cost over the allowable GSA imposed per diem limit for
lodging, meals, and incidental expenses. This resulted in reducing the
amount of questioned costs by an additional $479. After making these
changes of $2,499, the total amount of questioned costs is now restated
to $10,845.

For this report, we changed the classification of $4,281 in questioned
costs from unallowable to unreasonable to more accurately reflect our
basis for questioning these costs. The unallowable classification of the
remaining questioned costs was unchanged.

The OVW response agreed with our recommendation. This
recommendation is resolved based on OVW’s concurrence and agreement
to coordinate with Jane Doe to remedy the $10,845 (reduced from
$13,344 in the draft report) in unallowable expenditures for exceeding
lodging, meals, and incidental expense per diem limits for grant
2007-MU-AX-0067, which includes $487 in unallowable expenditures for
alcohol and bar-related charges to that same grant. This
recommendation can be closed when we receive documentation
demonstrating that Jane Doe has remedied the $10,845 in unallowable
expenditures for exceeding, lodging, meals, and incidental expense per
diem.


                            - 49 -
                REDACTED – FOR PUBLIC RELEASE
                  REDACTED – FOR PUBLIC RELEASE 




7. Resolved. Remedy the $8,456 in unallowable conference-related
   expenditures charged to grant 2007-TA-AX-K039, which includes $2,352
   in unallowable attrition fee charges to the grant.

  In its response, Jane Doe did not address this specific recommendation.

  For this report we changed the classification of $6,104 in questioned
  costs from unallowable to unreasonable to more accurately reflect our
  basis for questioning these costs. The unallowable classification of the
  remaining questioned costs was unchanged.

  The OVW response agreed with our recommendation. This
  recommendation is resolved based on OVW’s concurrence and agreement
  to coordinate with Jane Doe to remedy the $8,456 in unallowable
  conference-related expenditures charged to grant 2007-TA-AX-K039,
  which includes $2,352 in unallowable attrition fee charges to the same
  grant. This recommendation can be closed when we receive
  documentation demonstrating that Jane Doe has remedied the $8,456 in
  unallowable conference-related expenditures to OVW.

8. Resolved. Remedy $1,441 in unallowable expenditures for the
   Executive Director’s bonus charged to grant 2007-MU-AX-0067.

  In its response, Jane Doe indirectly addressed our recommendation
  saying that it provided documentation to support the Board of Directors’
  approval of a December 2008 bonus payment made to the Executive
  Director. The documentation provided was an e-mail from its Board
  Chairperson dated June 21, 2010, approving a bonus for fiscal year
  2010. However, the bonus payment we questioned was made on
  December 1, 2008, so the e-mail provided was evidence of the approval
  of an alternate bonus payment that we did not question.

  The OVW response agreed with our recommendation. This
  recommendation is resolved based on OVW’s concurrence and agreement
  to coordinate with Jane Doe to remedy the $1,441 in unallowable
  expenditures for the Executive Director’s bonus charged to grant
  2007-MU-AX-0067. This recommendation can be closed when we
  receive documentation demonstrating that Jane Doe has remedied the
  $1,441 unallowable bonus payment to OVW.

9. Resolved. Remedy $10,031 in unallowable consultant expenditures
   charged to the grant 2007-MU-AX-0067.


                              - 50 -
                  REDACTED – FOR PUBLIC RELEASE
                  REDACTED – FOR PUBLIC RELEASE 




   In its response, Jane Doe was not in agreement with our
   recommendation. Jane Doe said that it never believed it necessary to
   request any additional approvals for charges in excess of $450 per day
   because the consultant’s full contractual amount was disclosed in its
   grant application budget detail worksheet. In our assessment of the
   contractor’s fees in question, we did not question any flat rate fees
   charged on contractor invoice billings. Instead, from our review of the
   contractor invoices we were unable to determine the allotment of specific
   days over which the contractor services were provided. As a result, we
   questioned any specific contractor tasks that were charged in excess of
   the $450 per day allowable maximum imposed under the applicable OJP
   Financial Guide.

   The OVW response agreed with our recommendation. This
   recommendation is resolved based on OVW’s concurrence and agreement
   to coordinate with Jane Doe to remedy the $10,031 in unallowable
   consultant expenditures charged to grant 2007-MU-AX-0067. This
   recommendation can be closed when we receive documentation
   demonstrating that Jane Doe has remedied the $10,031 unallowable
   consultant payments to OVW.

10.	 Resolved. Ensure that Jane Doe establishes appropriate internal
   controls that include the design and implementation of procedures to
   assure that progress reports are filed on a timely basis in accordance
   with grant requirements.

   In its response, Jane Doe did not address this specific recommendation.

   The OVW response agreed with our recommendation. This
   recommendation is resolved based on OVW’s concurrence and agreement
   to coordinate with Jane Doe to ensure that it establishes appropriate
   internal controls that include the design and implementation of
   procedures to assure that progress reports are filed on a timely basis in
   accordance with grant requirements. This recommendation can be closed
   when we receive documentation demonstrating that Jane Doe
   established and implemented appropriate internal controls and
   procedures addressing the timely submission of progress reports.

11.	 Resolved. Ensure that Jane Doe develops a formal contractor
   monitoring program that includes written policies and procedures.




                              - 51 -
                  REDACTED – FOR PUBLIC RELEASE
               REDACTED – FOR PUBLIC RELEASE 



In its response, Jane Doe was not in agreement with our
recommendation of more aggressive contractor monitoring. Jane Doe
said that the report did not take exception with the monitoring of other
grant funded contractors except for the training contractor. Jane Doe
commented that given the long history of collaboration with the training
collaborator’s staff, more aggressive contractor monitoring was
unnecessary. Jane Doe also said it monitored project costs by requiring
and reviewing project narratives and Budget Detail Worksheets
submitted by the training contractor.

Despite Jane Doe’s claims, our audit disclosed that the training
contractor incurred unallowable expenditures for exceeding GSA imposed
the per diem limits for meals and incidental expenses by $6,104, as well
as incurred $2,352 in unallowable attrition fines. In our view, more
aggressive contractor monitoring could have prevented $8,456 in
unallowable expenditures that were charged to the grant. Additionally,
Jane Doe in its response did not provide documentation to establish that
the training contractor operated with a formalized and executed contract
and conceded the absence of a contract was a result of the parties’
familiarity with each other.

The OVW response agreed with our recommendation. This
recommendation is resolved based on OVW’s concurrence and agreement
to coordinate with Jane Doe to develop a formal contractor monitoring
program that includes written policies and procedures. This
recommendation can be closed when we receive documentation
demonstrating that Jane Doe developed and implemented a formal
contractor monitoring program with appropriate written policies and
procedures.




                           - 52 -
               REDACTED – FOR PUBLIC RELEASE
